<html>
<title> - ISSUES FACING THE U.S. SPACE PROGRAM AFTER RETIREMENT OF THE SPACE SHUTTLE</title>
<body><pre>[Senate Hearing 110-1132]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1132
 
  ISSUES FACING THE U.S. SPACE PROGRAM AFTER RETIREMENT OF THE SPACE 
                                SHUTTLE

=======================================================================



                                HEARING

                               before the

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

                                 OF THE

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION




                  U.S. GOVERNMENT PRINTING OFFICE
74-569                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director, and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

BILL NELSON, Florida, Chairman       KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi,
MARK PRYOR, Arkansas                 JOHN E. SUNUNU, New Hampshire
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 15, 2007................................     1
Statement of Senator Bill Nelson.................................     1
    Prepared statement...........................................     1
Statement of Senator Hutchison...................................    10
    Prepared statement...........................................    10

                               Witnesses

Griffin, Ph.D., Michael D., Administrator, National Aeronautics 
  and Space Administration, accompanied by William H. 
  Gerstenmaier, Associate Administrator for Space Operations, 
  NASA; and Dr. Richard Gilbrech, Associate Administrator, 
  Exploration Systems Mission Directorate, NASA..................     2
    Prepared statement...........................................     2

                                Appendix

National Aeronautics and Space Administration, Workforce 
  Transition Strategy Initial Report, Space Shuttle and 
  Constellation Workforce Focus, March 2008......................    37


                  ISSUES FACING THE U.S. SPACE PROGRAM


                 AFTER RETIREMENT OF THE SPACE SHUTTLE

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2007

                               U.S. Senate,
   Subcommittee on Space, Aeronautics, and Related 
                                          Sciences,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:58 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, good morning. Today, we're going to 
be discussing issues facing our Space Program and the question 
of the retirement of the Space Shuttle, the question of the new 
Constellation Program. We're going to be looking into the 
future.
    We are very, very pleased to have Dr. Griffin, our 
Administrator, Mr. William Gerstenmaier, the Associate 
Administrator for Space Operations, and Dr. Richard Gilbrech, 
Associate Administrator for the Explorations Systems Mission 
Directorate. Welcome to you all.
    I will submit a statement--opening statement for the 
record, and would invite Senator Hutchison to do the same.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Good morning and welcome to this hearing on NASA's plans for 
retiring the Space Shuttle and operating the International Space 
Station after 2010.
    The President's Vision for Space Exploration and the NASA 
Authorization Act of 2005 lay out a plan for NASA to complete 
construction of the International Space Station before retiring the 
Space Shuttle and transitioning to our Nation's next generation launch 
vehicle. Today we examine NASA's plans for implementing these 
requirements and the implications for the International Space Station 
and the NASA workforce after the shuttle is retired.
    I have three areas of concern regarding the transition that I would 
like to hear addressed today. First, I am concerned that NASA is 
improperly planning to retire the space shuttle on an arbitrary date in 
2010, rather than completing the current manifest as required by both 
the President's Vision document and the authorization act.
    Second, NASA's plan for cargo and human transportation to the ISS 
is woefully inadequate. NASA's baseline plan to purchase services from 
commercial providers is predicated on the wildly optimistic assumption 
that two small, start-up companies will successfully develop, launch, 
and test cargo- and human-rated rockets and space vehicles in the next 
34 months. While I enthusiastically support the COTS program, it should 
only be an adjunct to a more reliable, proven approach. The current 
plan B is to purchase additional launch services from the Russians. 
NASA should not assume that Congress will authorize additional 
expenditures to Russia. Nor will this senator support any plan that 
would allow Vladimir Putin to hold hostage a $60 billion U.S. national 
asset. NASA needs a better plan.
    Third, to fulfill our oversight responsibility, this committee must 
understand the effects of the upcoming changes on NASA's workforce, 
both civil servants and contractors. All of the information we have 
received to date has been limited to generalities and platitudes. We 
need to see the numbers.
    We are all aware that NASA is being asked to do much with too 
little. The President has not provided the funding necessary to 
implement his own Vision for Space Exploration. However, we must plan 
responsibly for the future, protecting and utilizing our current assets 
while developing new capabilities for the next generation of explorers.

    Senator Nelson. And we'll put your opening statements in 
the record, as we previously discussed. And so, if it's with 
the pleasure of the witnesses, we'll just get into a discussion 
of this issue.

     STATEMENT OF MICHAEL D. GRIFFIN, Ph.D., ADMINISTRATOR,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION,

       ACCOMPANIED BY WILLIAM H. GERSTENMAIER, ASSOCIATE

         ADMINISTRATOR FOR SPACE OPERATIONS, NASA; AND

         DR. RICHARD GILBRECH, ASSOCIATE ADMINISTRATOR,

         EXPLORATION SYSTEMS MISSION DIRECTORATE, NASA

    Dr. Griffin. Thank you, Senator. And entering--I'd be happy 
to enter my statement for the record and to defer making it at 
this time.
    [The prepared statement of Dr. Griffin follows:]

    Prepared Statement of Michael D. Griffin, Ph.D., Administrator, 
             National Aeronautics and Space Administration
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today to discuss the various aspects of the Space 
Program after the Shuttle is retired, including the status of space 
transportation in support of the International Space Station (ISS). I 
would like to give you an update on our plans to ensure that space 
transportation capabilities remain available through the completion of 
ISS assembly and during the ISS post-assembly period after the Space 
Shuttle fleet has been retired in 2010. These capabilities are 
essential to successfully complete, operate and maintain the ISS, 
ensure productive utilization of this valuable national asset, and meet 
U.S. obligations to our international partners, including Canada, 
Europe, Japan, and Russia.
    For the remainder of this decade, the Space Shuttle fleet will 
remain a highly capable and reliable system for assembling and 
servicing the ISS. The Shuttle, in concert with the consistent 
performance of our Russian partner's Soyuz and Progress vehicles, and 
the emerging cargo transfer vehicles from our European and Japanese 
partners, will ensure that the ISS will have adequate support for the 
remaining assembly period. The use of the Shuttle to deliver ISS 
components, essential spares and external stowage platforms is critical 
during this period.
    Looking to the post-assembly period, NASA's next human spaceflight 
vehicle, the Orion Crew Exploration Vehicle, is on track to achieve 
Initial Operational Capability (IOC) in early 2015. The Constellation 
Program, of which Orion and its Ares I Crew Launch Vehicle are key 
components, has already made significant strides in the development and 
testing of system components.
    The next decade, 2011 to 2020, will be an exciting period in the 
space transportation industry. There are many initiatives underway in 
both the public and private sectors to field new vehicles to serve the 
next generation of space exploration and development. It is important 
that NASA closely monitor the progress of individual development 
projects and actively manage risk so as not to jeopardize the viability 
of the ISS due to an inability to service it on a timely basis. 
Flexibility will be important to our success.
    The capability to transfer crew to and from the ISS, and to ensure 
a safe and expedient return in the event of an emergency, is relatively 
limited in the near term. On the other hand, capabilities to transport 
cargo and crew should become more diverse in the next decade, and thus 
will involve detailed trades among cost, schedule, performance, and 
risk. NASA's policy is to employ U.S. commercial services for both 
cargo and crew exchange at the earliest available opportunity, while 
minimizing the technical risks of interrupting the U.S. crew presence 
on orbit, or having to leave the ISS in a state of disrepair because 
failed components cannot be replaced.
The Space Shuttle Legacy
    The ISS was designed to employ the Space Shuttle fleet for assembly 
and ongoing servicing. With a capacity for launch and return of up to 
16 metrics tons (Mt) of non-pressurized cargo and four Mt of 
pressurized cargo, the Space Shuttle's supply and return capability far 
exceeds that of all other domestic and foreign vehicles. In addition, 
the Space Shuttle provides ISS crew exchange, while also transporting 
the construction crew needed to conduct complex assembly operations in 
space. The Shuttle's robotic arm is essential to these tasks, as are 
the Shuttle-based capabilities for conducting extravehicular 
activities. When necessary, the Space Shuttle can be employed for ISS 
attitude control and re-boost. For these reasons, the ISS was designed 
to be assembled and maintained based on the Space Shuttle's 
capabilities. The transition from Shuttle-based space transportation to 
a mixed fleet of U.S. commercial spacecraft and international partner 
assets is challenging due to this design heritage, but NASA is 
committed to developing options to satisfy the requirements of the ISS 
after the retirement of the Shuttle.
    Retirement of the Space Shuttle is on schedule for 2010 and 
critical to future Exploration plans. As we approach this date, we are 
hopeful that we can complete the ten remaining Space Station assembly 
flights, the servicing mission to the Hubble Space Telescope, and the 
two contingency Shuttle missions to the ISS within this timeframe. If 
it becomes clear that we will not complete the flight manifest by 2010, 
NASA will evaluate options and make adjustments consistent with not 
flying any flights beyond 2010. Continuing to fly the Shuttle beyond 
2010 does not enhance U.S. human spaceflight capability, but rather 
delays the time until a new capability exists and increases the total 
life cycle cost to bring the new capability on line.
    In the second half of 2006, NASA successfully completed three Space 
Shuttle missions which continued ISS assembly with the addition of the 
P3, P4, and P5 truss segments. In June 2007, ISS-13A (STS-117) added 
the S3 and S4 truss segments, boosting available power on the ISS to 63 
kilowatts. All of these new systems continue to operate as designed, 
with the exception of the starboard solar array rotary joint. We need 
to determine the source of the contamination within this joint, but all 
of the rotational elements are replaceable and there is a high 
probability of repair. Analysis completed to date shows this problem 
will not impact the next assembly flight ISS-1E (STS-122).
    The most recent mission, STS-120, landed safely at Kennedy Space 
Center on November 7, 2007, after having delivered the Node (Harmony) 
safely to the ISS. The Harmony will now be moved to its permanent 
location at the end of the U.S. laboratory. This activity will involve 
three spacewalks and two major robotic maneuvers. Harmony will be ready 
for ingress and final activation around November 24. Pending successful 
activation and relocation of Harmony, the Shuttle and ISS teams are set 
to complete four flights this year. This is remarkable considering that 
2007 started with an external tank sustaining 2,000 hail damage hits 
and a three-month delay to flights.
    The next ISS assembly flight 1E (STS-122) is scheduled to launch 
the European Columbus laboratory in early December 2007. With this 
flight, we will turn our attention to integrating the long-awaited 
elements of our international partners. It will be followed next year 
by deployment of the Japanese Kibo laboratory complex, and the Canadian 
Dextre, a special purpose dexterous manipulator for the ISS external 
robotics system. With the addition of these features, the ISS will 
emerge as a prominent example of the benefits of cooperation in science 
and technology for peaceful purposes. The ISS will house three premier 
research laboratories, one from the U.S., one from Europe, and one from 
Japan.
    Future missions will enable us to increase the ISS permanent crew 
size from three to six and deliver critical system spares to the 
Station. A crew of more than three is needed if Space Station partners 
are to conduct a robust research program on board the ISS. Pre-
positioning spares gives us the ability to ensure a prudent margin on 
systems performance, while allowing the U.S. commercial transportation 
capability to mature. This strategy was also one of the principal 
recommendations found in the February 2007 Final Report of the ISS 
Independent Safety Task Force.
    The Space Shuttle will retire at the end of Fiscal Year 2010. After 
2010, there is no mission requirement for the unique capabilities of 
the Space Shuttle. Flying the Space Shuttle past 2010 would carry 
significant risks, particularly to our efforts to build and purchase 
new transportation systems that are less complex, less expensive to 
operate, and better suited to serving both ISS utilization and 
exploration missions to the Moon, Mars, and beyond. Already, Shuttle 
facilities are being closed or transferred to exploration, Shuttle 
contracts are being phased out, and Shuttle engineers are transitioning 
to exploration activities. If we were to take the costly step of 
reversing those changes to keep the Space Shuttle flying past 2010, at 
a cost of $2.5 billion to $4.0 billion per year, using the same 
facilities that Constellation needs to develop, test, and begin 
operating Ares I and Orion, we would only exacerbate the gap in U.S. 
human spaceflight and put at risk our Nation's preeminence in space 
exploration. NASA is committed to a transition and retirement process 
that is efficient, innovative, and that minimizes the gap in U.S. human 
spaceflight to the greatest extent possible. In support of this effort, 
we have modified the Space Program Operations Contract (SPOC) to create 
a strong bridge between Shuttle and Constellation operations.
Transition
    NASA recognizes that the foundation of its success in conducting 
human spaceflight activities is the professional strength and 
dedication of its workforce. While the development of the Orion 
spacecraft and the Ares family of launchers will involve the 
integration of new technologies and procedures, many of the basic 
skills needed to create these are already resident at NASA's human 
spaceflight Centers. In an effort to maximize the benefit of the 
Agency's corporate knowledge and minimize potential disruption to the 
workforce from the transition from the Space Shuttle to Orion, NASA has 
placed emphasis on refocusing its human spaceflight workforce on 
activities supporting the Exploration program as Shuttle activities 
ramp down. We have also put in place a system which allows employees to 
have two charge codes, one for Constellation work and one for Shuttle 
and Station work. This gives the employees a chance to begin transition 
as they fly out Shuttle. Examples of NASA's efforts to retain Shuttle 
workforce for Constellation projects include:

  <bullet> The Space Shuttle Program manages ``Retention of Critical 
        Skills'' through the last Mission in 2010 as a ``top program 
        risk.'' The second Space Shuttle civil service employee survey 
        closed July 13, 2007. As was the case with the 2006 employee 
        survey, many employees wish to continue working on Space 
        Shuttle until the end of the program, but they want to have 
        more information about their specific job assignments after 
        Shuttle has been retired. Results of the survey will assist 
        NASA in crafting employee assignment and motivational 
        strategies to best use our dedicated civil service workforce 
        through the last Shuttle mission.

  <bullet> NASA's Human Capital leads held a joint Government/
        Contractor Human Capital Forum in August 2007 to share best 
        practices in communications. NASA is working with the Space 
        Shuttle prime contractors on ways to optimize skilled employee 
        retention. Since both government and contractor employees cite 
        meaningful future Exploration work as a primary motivator to 
        continue working on Shuttle, NASA can affect employee retention 
        by competing and awarding the remaining Constellation contracts 
        as that work is defined by the Government.

    In addition to preserving the expertise of its work force, NASA is 
also committed to leveraging key facilities for the Orion and Ares 
projects, rather than letting them fall into disuse after the 
retirement of the Shuttle. To that end, we are examining our inventory 
of manufacturing, integration, assembly, and check-out facilities to 
determine whether they can be used to support the needs of the 
Exploration program; such facilities represent a significant investment 
by the taxpayer, and we will work to ensure that, where cost-effective, 
they are put to use effectively in the years ahead. Transition also 
provides with an opportunity to change and improve the way that we are 
operating. Some facilities no longer needed and with maintenance costs 
will be closed. Examples of NASA's efforts to turn over or retire 
Shuttle-related facilities include:

  <bullet> The Space Shuttle Program has turned over the West Mobile 
        Launch Platform Park Site at Kennedy Space Center to the 
        Constellation Program. Echoing its use during Apollo and early 
        Shuttle development, the Park Site will be used as a staging 
        area for early construction and modifications at KSC as 
        Constellation launch facilities are built up. At Stennis Space 
        Center, the ``A-1'' Engine Test Stand turned over by the Space 
        Shuttle Program in November of 2006 was outfitted with the 
        first Power Pack Assembly for the Ares I Upper Stage J-2X 
        liquid rocket engine and is soon to begin engine testing.

  <bullet> NASA continues to retire Space Shuttle capabilities once 
        they are no longer needed for the successful fly-out of the 
        remaining Space Shuttle missions through 2010. NASA has begun 
        removal of the Forward Reaction Control System (FRCS) rocket 
        testing system at the White Sands Test Facility in New Mexico. 
        At the Palmdale, California Boeing site, temporary building and 
        tooling for the Space Shuttle have begun to be removed as part 
        of a pilot project to assess the time and cost required to 
        dispose of assets that are no longer required. Similarly, at 
        the Michoud Assembly Facility in New Orleans, old Space Shuttle 
        Orbiter tooling and spares no longer needed to meet the 
        manifest are being excessed to clear out space needed for the 
        Constellation Program's Ares I Upper Stage production.
Orion Crew Exploration Vehicle and Ares I Crew Launch Vehicle
    NASA's Constellation program, which includes the Orion Crew 
Exploration Vehicle and the Ares I Crew Launch Vehicle projects, has 
made great strides this past year. The program has tested hardware, 
logged wind tunnel hours, conducted rocket firings, and hired 
contractors for almost all program elements. Constellation has an 
integrated schedule and is meeting its early milestones. The Ares I has 
passed its system design review and is on track for preliminary design 
review, with test flights slated for 2009. All major elements of Orion 
and Ares I will be under contract by the end of 2007, bringing the 
program closer to the IOC of Orion in March 2015 and full operating 
capability about 1 year later.
    The Orion will translate the hopes and aspirations of explorers the 
world over into an operational system for the next generation in human 
space exploration. It is the first element in an evolving architecture 
that will one day carry people back to the Moon, on to Mars and beyond. 
The Orion will also have the capability to exchange crews on the ISS 
and serve as an emergency crew return vehicle. In this role, which it 
will serve if U.S. commercial services are unavailable, it will have a 
capacity for up to six crew members and a stay time on orbit of up to 
210 days. Its associated command module will have a limited capacity 
for some pressurized dry cargo transfer.
International Space Station: Post-Assembly Transportation Requirements
    Once ISS assembly is completed and the Space Shuttle fleet is 
retired in 2010, transportation requirements decline from the 
approximately 50-60 Mt per year associated with assembly to 
approximately 10-20 Mt per year needed to sustain the system and 
utilize the internal laboratories and external platforms. NASA is 
continuously evaluating these space transportation requirements to 
ensure that maximum operating efficiencies are gained and minimum 
maintenance and utilization needs are met. Cargo re-supply requirements 
fall into two broad categories: (1) items necessary to meet internal 
demands, such as consumable liquids and gases (e.g., water, oxygen, and 
nitrogen), internal system spares, crew provisions, and internal 
scientific payloads; and, (2) items such as external system spares, 
ammonia tanks, and external scientific payloads.
    NASA's analysis of post-assembly logistics demand and supply 
considers first the transportation assets available through the 
baseline ISS program. Initial analysis indicates that there remains a 
significant shortfall between the logistics demand to sustain and 
utilize the ISS and the logistics supply available through 
international agreements, contracts, and services owed. This shortfall 
corresponds to approximately 10 Mt per year after Space Shuttle 
retirement, or over 50 Mt through 2015. When one takes into 
consideration the packaging structure and carriers necessary to 
transport a net usable cargo of 50 Mt, the gross requirement approaches 
80 Mt through 2015. Some options for addressing this challenge are 
detailed below.
    In addition to cargo services, six crew members will permanently 
occupy the ISS in six-month rotations. Three of these crew members will 
be provided by Russia; the remaining three crew members will be from 
the U.S. and Canada, Europe, or Japan. The U.S. is obligated to provide 
bi-annual crew exchange, as well as emergency crew return capability 
and habitation accommodations, for these three crew members. Once the 
Space Shuttle is retired, the Russian Soyuz will be the only vehicle 
available for crew exchange and rescue services until a U.S. commercial 
crew service, or Orion, is available. NASA has contracted with 
Roscosmos to provide Soyuz and limited cargo services through the end 
of FY 2011, as permitted under the Iran and Syria Nonproliferation Act 
(P.L. 106-178, as amended by P.L. 109-112). NASA is monitoring the 
progress of potential domestic commercial providers to develop cargo 
and crew transportation services to the International Space Station 
(ISS), and the Orion project is on track to reach its Initial 
Operational Capability in March 2015. The Administration is considering 
options to maintain a U.S. crew presence aboard the ISS. Purchasing 
cargo and crew transportation services domestically is NASA's preferred 
method to meet the needs of the ISS. Another option may be to seek 
relief from the provisions the Iran and Syria Nonproliferation Act for 
additional Soyuz services to keep a U.S. crew presence on the ISS until 
either domestic commercial crew transportation services, or Orion, 
become available. We will keep the Congress fully informed of our 
plans.
U.S. Commercial Orbital Transportation Services (COTS)
    U. S. space policy directs pursuit of commercial opportunities for 
providing transportation and other services to low Earth orbit and 
beyond. Successful COTS partners may open new space markets and provide 
reliable, cost effective cargo and crew transportation services, 
ushering in a new era for commercial space. NASA is investing $500 
million to stimulate the commercial space industry and to facilitate 
U.S. industry demonstration of commercial space transportation 
capabilities under Phase 1 of the COTS project. NASA plans to utilize 
the commercial space industry to re-supply the ISS after retirement of 
the Space Shuttle in 2010.
    The COTS launch providers are not developing systems to be operated 
by the government or its contractors, but are demonstrating a 
capability that NASA and others can later purchase as a commercial 
service. Since these companies are developing vehicles that they intend 
to use commercially for other customers in addition to NASA, they are 
assuming a significant portion of the financial and programmatic risk.
    As part of Phase 1 of the COTS project, the Agency signed two 
funded Space Act Agreements (SAAs) with emerging commercial launch 
providers or ``partners'' to facilitate the development and 
demonstration of the vehicles, systems, and operations needed to 
resupply, return cargo from, and transport crew to and from a human 
space facility, with the ISS providing the representative requirements 
for such a facility. Performance milestones culminate in a flight 
demonstration in which the partner's vehicle will launch, rendezvous 
and dock with ISS, and return safely to the Earth's surface. The 
partners are only paid a pre-negotiated, fixed amount if they 
successfully complete a milestone. If they do not complete the 
milestone to NASA's satisfaction, they are not paid. These milestones 
are both technical (e.g., a successful design review or hardware test) 
and financial (e.g., raising a certain amount of private funding). NASA 
has also entered into multiple unfunded SAAs with various emerging 
commercial launch providers to provide support in the development of a 
low Earth orbit transportation capability.
    NASA assists the COTS partners' efforts by providing a network of 
Agency technical experts across all discipline areas--known as the COTS 
Advisory Team. Extensive NASA technical and facility resources are also 
available to the commercial partners through reimbursable SAAs.
    On October 18, 2007, NASA terminated one of the two funded SAAs 
because the commercial partner had failed to perform under the terms of 
the agreement. NASA remains committed to the COTS project and to 
stimulating a robust commercial space industry, as demonstrated by the 
release of a competitive announcement on October 22, 2007, seeking a 
new round of Phase 1 proposals. Industry proposals for this new 
competition are due to the Agency on November 21, 2007.
    NASA's Space Operations Mission Directorate, in cooperation with 
NASA's Exploration Systems Mission Directorate, will oversee 
procurement of commercial cargo services to and from the ISS. The 
President's 2008 Budget included $1.9 billion over 5 years in the Space 
Operations Mission Directorate for crew and cargo services, the 
majority of which will be available for commercial services. We 
continue to analyze the exact amount of funding required in this area. 
A government procurement of commercial cargo services is planned. NASA 
released a Commercial Space Transportation Services Request for 
Information (RFI) on July 7, 2007. Issuance of a Request for Proposals 
(RFP) is currently expected in FY 2008.
Japanese H-DII Transfer Vehicle (HTV)
    Japan's HTV is an expendable, automated cargo transfer vehicle 
designed to launch on the H-IIB expendable rocket and rendezvous with 
the ISS. It will include both pressurized and non-pressurized carriers, 
thus allowing delivery of rack-mounted equipment, water and gases, and 
non-pressurized system spares. The HTV has completed its critical 
design review and is scheduled for demonstration in the mid-2009 
period. The cargo capacity will be approximately 5.5 Mt and the lead-
time to production is estimated to be three to 4 years. Japanese plans 
currently call for a production capacity of one HTV per year. This rate 
corresponds to Japan's commitment to fly one HTV per year over the 
period 2009-2015.
    A portion of the HTV cargo capacity is owed to the ISS program 
based on Japan's share of common system operations costs and prior 
barter arrangements. This cargo capacity is important since it has 
already been factored into the ISS baseline program for cargo supply. 
Approaches to acquiring further HTV cargo delivery services, 
particularly in the area of non-pressurized system spares, are under 
evaluation in the event that COTS cargo services are delayed. If system 
sparing becomes critical to maintain the station and U.S. commercial 
cargo services are delayed, it would be prudent to have the flexibility 
to execute a sound contingency plan.
European Automated Transfer Vehicle (ATV)
    Europe's ATV is an expendable, automated cargo transfer vehicle 
designed to launch on the Ariane V expendable rocket and rendezvous 
with the ISS. It will have capability to deliver dry cargo at the sub-
rack level, and external tanks for water, gases, and propellant. The 
cargo capacity will be approximately six Mt and the lead-time to 
production is estimated to be about 3 years. The first ATV, Jules 
Verne, is currently in final integration at the Guiana Space Center, 
Kourou, French Guiana (South America) and is scheduled for launch to 
the ISS in the first quarter of calendar year 2008. European plans call 
for production of five ATVs, corresponding to their commitment to fly 
five vehicles to the ISS over the period 2008-2013.
    A portion of the ATV cargo capacity is owed to the ISS program 
based on Europe's share of common system operations costs. This cargo 
capacity is also important and has been factored into the ISS baseline 
program for cargo supply. In addition, the ATV is capable of performing 
ISS re-boost and attitude control, and propellant can be transferred to 
the ISS tanks for use after the ATV has departed.
Russian Progress and Soyuz Vehicles
    The expendable Russian Soyuz rocket has over 1,700 successful 
launches in the past 40 years. In the ISS Program to date, it has been 
used to launch 15 Soyuz crew transfer vehicles, each having a capacity 
for three crew, and 26 expendable, automated Progress cargo transfer 
vehicles. Both vehicles rendezvous with the ISS. In the future, the 
Russian segment is planned to expand to accommodate two Soyuz and two 
Progress (or a Progress and an ATV) vehicles to support six crew. The 
Progress has the capability to deliver dry cargo and tanks for water, 
gases and propellant. Its cargo capacity is approximately 2.5 Mt. The 
lead-time to produce a unit is estimated to be a little over 2 years 
for both Soyuz and Progress. Russian plans currently call for the 
production of two to four Soyuz crew vehicles per year and three to 
five Progress cargo vehicles per year for missions to the ISS through 
at least 2015.
    The ISS program has purchased approximately six Mt of cargo 
capacity from Russia for use during the FY 2009-11 period in order to 
help bridge any time between the Shuttle retirement and U.S. commercial 
cargo transfer availability. These services are considered important 
and have been factored into the ISS baseline program for cargo supply. 
In addition, Soyuz services have been purchased through the end of FY 
2011 to provide crew rotation and rescue before U.S. commercial crew 
transfer, or Orion, services become available. These services have also 
been factored into the baseline program for crew exchange.
Conclusion
    NASA is making excellent progress toward completion of the ISS 
assembly phase. In the coming year, popular awareness will expand 
dramatically around the world as the laboratories of Europe, Japan, and 
later, Russia, begin operations alongside the U.S. laboratory. The 
performance of on-orbit systems, transportation systems, and the flight 
and ground crews has been outstanding. The teams have successfully 
dealt with many challenges and will no doubt continue to face 
challenges; operating continually in space is an extremely difficult 
endeavor, but despite the difficulties, the ISS has now been 
continuously crewed for more than 7 years. This remarkable level of 
achievement is possible only because individually, and collectively, we 
have learned how to actively manage risk with maturity and prudence.
    The future of space transportation is uncertain in detail, but 
clear in direction. The next decade will offer more opportunities, and 
choices, than did the last decade. We must continue to examine these 
choices if we are to be prepared for the next phase in the ISS program. 
While we focus our sights on enabling discovery and a new economy in 
space, we must also develop our transportation plans to withstand the 
risk of short-term setbacks that are inevitable in the development of 
new technologies for new frontiers. We have done the planning, 
understand the options, and are prepared. We appreciate your continued 
support to maintain the flexibility needed in order to be successful.
    Thank you for the opportunity to appear before you today. I would 
be pleased to respond to any questions that you may have.

    Senator Nelson. As I understand it, in previous 
conversations with you and your colleagues, Dr. Griffin, you're 
stating that the policy of NASA now is to have a hard date of 
September 30, 2010, in which to shut off the Space Shuttle. 
What happens if you haven't completed the remaining 13 flights 
on the manifest by that point?
    Mr. Gerstenmaier. I'll answer that for you.
    Again, we've laid out a plan to get the Space Station 
assembly complete. And, in that plan, we have, essentially, ten 
more flights remaining for assembly, and then two contingency 
flights. And we've put two contingency flights in to ensure 
that we could get all the Space Station assembled by that date.
    And we're making pretty good progress along that plan. It 
looks like we're going to probably need those two contingency 
flights to fly some additional spares up to help us with the 
gap, but that all works out fine, and that's all laid out as 
our current plan. If we start getting toward the end of 
September 30, 2010, and it looks like we're not going to be 
complete with assembly, as soon as we start detecting some 
problems along those lines, we would come to you and let you 
know what problems we're seeing and talk to you about other 
options to go ahead and do some things differently.
    Ultimately, we might be able to remove some of those 
flights if things go the right way. But, again, at this point, 
we really need those flights, from a sparing standpoint. We 
need to have the Station in a good, assembled configuration, 
and we're on a good track to go do that.
    So, again, I think we have a good working plan that gets us 
there to September 30, 2010, and we're prepared to react and 
change if we need to, if we see something come along the lines 
that make it different.
    Dr. Griffin. And I think our last flight is scheduled for 
April of 2010, at this point; so, at this point, we've got 5 
months of schedule margin in the system. So, we think our plan 
is in good shape, sir.
    Senator Nelson. Well, the whole purpose for this hearing is 
to try to explore all the different possibilities, the 
different contingencies. And you are looking at a flight rate 
of four flights per year. What makes you think that you can 
maintain that rate in 2009 and 2010, when, at that point, you 
only have two orbiters left?
    Mr. Gerstenmaier. Again, if we look at our historic flight 
rate, we're able to achieve that flight rate pretty regularly. 
And that includes even if we've had some downtime because of 
things like the hail damage, et cetera. And, if you look at 
this year, for example, the first part of the year we had the 
hail damage on the Shuttle, and we didn't fly until later in 
the spring, but it still appears that we're going to be on 
track to get four flights done this year. We're also looking at 
options to continue to fly Atlantis, OV-104, for some 
additional flights. And so, the current planning shows two 
Shuttle flights in those out years, but I think this spring 
we'll talk about that again, and we'll probably go ahead and 
continue to fly Atlantis for maybe two more flights, and we'll 
add that into the manifest. So, again, we're still continuing 
to evaluate, but, based on our past flight performance and our 
recent performance here, in the last year and this year, I 
think four flights per year and the remaining manifest is very 
achievable, and it doesn't put a lot of strain on the system to 
accomplish those flights. They won't be easy, but our teams are 
ready, we're prepared, and we're ready to execute.
    Senator Nelson. So, what I'm hearing you saying is that you 
don't have an absolute hard cutoff date on September 30, 2010, 
in what you have just stated to me. And I would remind you that 
when Senator Hutchison was the chairman of this subcommittee, 
and we passed, under her leadership, the NASA Authorization 
Act, and, in it, in the Vision for Space Exploration, there is 
no mention of a hard cut-off date there. So, am I correct? I'm 
hearing you say no hard cut-off date?
    Dr. Griffin. No, sir. We are--the President has directed 
that the Space Shuttle be retired by the end of 2010, and our 
budgetary planning does show that we will finish our last Space 
Station flight in Fiscal Year 2010, and we have, at this point, 
5 months of margin to do that. I believe we have a very solid 
plan to get there, as Mr. Gerstenmaier was just outlining and 
as we're--we, you know, have discussed, and are happy to 
discuss, with your committee staff. So, I think our plan is 
very solid.
    Senator Nelson. I want to challenge that. I want to 
challenge that, Dr. Griffin, because I'm reading from the 
President's Vision for Space Exploration, and it says, ``Retire 
the Space Shuttle as soon as assembly of the International 
Space Station is completed, planned for the end of this 
decade.'' So, where do you see that the President has--
``required'' is the word that you used?
    Dr. Griffin. I stand corrected, sir.
    Senator Nelson. All right. And I want to further refer to 
the NASA Authorization Act of 2005, it requires that the 
International Space Station, ``be assembled and operated in a 
manner that fulfills international partner agreements as long 
as the Administrator determines that the Shuttle can safely 
enable the United States to do so.'' And the law also requires 
that, ``the Administrator shall ensure that the ISS can have 
available, if needed, sufficient logistics and on-orbit 
capabilities to support any potential period during which the 
Space Shuttle or the follow-on crew and cargo systems are 
unavailable, and can have available, if needed, sufficient 
surge delivery capability or pre-positioning of spares and 
other supplies needed to accommodate any such hiatus.''
    So, it sounds to me that the legal authority backing you up 
is basically a statement of law that we are to complete the 
International Space Station and have the capability of the 
logistics and follow-on crew and cargo systems.
    Dr. Griffin. Yes, sir. And I have been unambiguous in my 
statements, in the past and again today, that we will finish 
the International Space Station. I'm simply saying that that is 
scheduled to be accomplished within Fiscal Year 2010, and we 
believe we have margin to do that. But, I--you and I share the 
goal of intending to finish the International Space Station.
    Senator Nelson. I just want to say, you know I am your 
biggest fan, and you all just do terrific work, and another 
example is, in real time, what you did in this last mission 
with the tear in the solar panel, and how, at some risk, you go 
out there and, in fact, are able to repair it. But those kind 
of things, all of us know in this room, will happen, and I want 
us to get in the frame of mind that what we have is a $50 or 
$60 billion asset up there in space that has got to be tended 
to, and it's got to be built. You've got the hardware, and 
you're planned for it, and it may not come by September 30, 
2010.
    Dr. Griffin. Sir, I understand. I do understand your point 
very well. If we are not able to finish by 2010, and if we were 
required to keep flying the Space Shuttle, that comes at a cost 
of $2.7 billion in ownership costs for the Shuttle each year, 
and that will delay our deployment of the follow-on systems, 
Orion and Ares. And, of course, with the fixed budget that we 
have, we are very reluctant to delay our future systems. So, we 
are trying, with all our might and with every good intention, 
to finish the construction of the Space Station by the end of 
Fiscal Year 2010.
    Senator Nelson. We'll get into the budget a little later 
on.
    What I did was just put the opening statements in the 
record. It's your pleasure, whatever you would like to do, and 
let me just turn it over to you, Kay.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you.
    I do think that our Committee has been--I don't want to say 
``blessed,'' because that would be too strong a word, but 
``fortunate'' to have leadership in the last few years where 
the Chairman and the Ranking Member have been in lockstep, both 
when I was Chairman and now as Ranking Member, and along with 
Senator Nelson, because we are solidly committed to a strong 
NASA program, and we are committed to the Space Station being 
finished, and also the Crew Exploration Vehicle, as a matter of 
national security, to be online, we believe, without a gap. 
That's not exactly realistic right now, I understand that, but 
our goal is to close that gap.
    I believe you, yourself, Dr. Griffin, said that you thought 
if China or any other country--India or Russia--gets humans 
back to the Moon, before America does, that Americans are going 
to say, ``Why?'' I would just add that I think if we are not 
able to go into space at all in a gap period because our 
relations with Russia, which is providing transportation now, 
is not such that we would be able to go up, that the American 
people are going to wake up and say, ``What happened? What 
happened to the leadership of our country, to the leadership in 
Congress, and to the leadership in NASA, that we would be in a 
hiatus from being able to go into space at a time when other 
countries are emerging and doing it?'' So, I think we have to 
prepare for that. I hope we don't wait for the crisis to 
happen, and I know that my colleague, the Chairman, agrees with 
me.
    [The prepared statement of Senator Hutchinson follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    I join the Chairman in welcoming Dr. Griffin, along with Mr. 
Gerstenmaier and Mr. Gilbrech to this hearing today.
    This is an extremely important hearing, on a subject which is 
becoming of increasing concern, not only to Chairman Nelson, myself, 
and this Subcommittee, but to other Members of Congress as well, who 
have voiced their concerns to me.
    Two years ago, this Subcommittee introduced its NASA Authorization 
Bill, S. 1281, which subsequently was enacted into law. The first 
version of that legislation included language which prohibited a gap 
between the retirement of the space shuttle and the initial operation 
of its successor vehicles.
    At the urgent request of NASA and the Administration, we modified 
that language to say that, as a matter of national policy, there should 
be no gap, but that NASA should tell us, within a year of the last 
scheduled Shuttle mission, what kind of gap might be expected, what the 
impacts of that gap would be, and what options existed to address those 
impacts.
    In hindsight, we probably should have written that language so that 
such a report would be provided two or even 3 years before the last 
scheduled flight, because the early steps necessary to make the 
transition from shuttle operations to the Ares launcher and the Orion 
Crew Exploration Vehicle are already being taken.
    Our concern is that some of those steps may close off some of our 
possible options for dealing with the gap. That is why this hearing 
today is so important. We need to understand the full consequences of 
the early transition steps, in order to know whether they have the 
potential of limiting our available options to ensure our historical 
leadership in space exploration is not undermined.
    During consideration of the Commerce, Justice, Science and Related 
Agencies bill, recently, I spoke about the possibility of another 
``Sputnik Moment'' as other nations, like China, the Europeans, India, 
and others, make greater strides in developing and using human 
spaceflight capability--while the U.S. is facing a gap in our own 
ability.
    I believe that both our national security and our economic well-
being as a nation will be greatly damaged if we do not take steps to 
avoid another ``Sputnik Moment.''
    You have said in a recent speech, Dr. Griffin, that if another 
nation should get humans back to the Moon before the U.S., that the 
American people would not like it, and wonder how we let that happen.
    I agree, and I also believe that if we were to end up completing 
the assembly of the International Space Station, and then be unable to 
get to it, and use it, and get a return on our very large investment, 
that Americans would have the same reaction and ask the same questions.
    I hope this hearing will enable us to have a clearer idea of what 
we will need to do, as a nation, to make sure they don't.

    Senator Hutchison. So, let me ask you, as a follow-on to 
what you were just saying--you have said that, within the 
constraints of the budget, you can finish the Shuttle Program, 
in the 2010 Fiscal Year, that that will complete the Space 
Station. But you also have said that money taken for the 
Shuttle also takes away from the development of the Crew 
Exploration Vehicle. My question is this, what would it take--
and I'm reading from estimates that you provided for us earlier 
this year--to accelerate the Ares launcher and the Orion 
vehicle, to shorten that gap? I believe you said--and you can 
correct me--that you would need an additional $2 billion 
between FY 08 and FY 2010 in order to accelerate the 
production. Either correct me or tell me if anything has 
changed in that number that would cause you to revise that, 
because, of course, you know that I, along with Senator 
Mikulski, tried to put $1 billion into this year's 
appropriation, which, at this point, does not appear likely to 
be successful in the conference committee, but it is because we 
were trying to accelerate the Crew Exploration Vehicle 
production. So, could you give us revised or current estimates 
of what it would cost to accelerate and what could we expect, 
for that money, the timetable to be for the acceleration?
    Dr. Griffin. Thank you, Senator.
    I will open by saying I agree completely with the concerns 
you have expressed about the primacy of the United States in 
the world--and in its relation to our position in spaceflight. 
And, as you know, from the time of my swearing in as 
Administrator, the length of the gap between retirement of 
Shuttle and deployment of the Orion Crew Exploration Vehicle 
has been a primary concern of mine. And I've been very public 
about that.
    When I came onboard, it would have been possible, given the 
necessary budgetary resources, to deploy--to retire the Shuttle 
at the end of 2010, and to deploy Orion in 2012. Time has 
passed, and that is no longer possible. The earliest date that 
we could technically do it today would be September of 2013, we 
believe, absent crash measures. I'm talking about normal 
programmatics to deliver a sound vehicle with sound program 
management styles. We could do it in September of 2013.
    I will defer, in a moment, to Dr. Gilbrech to give you the 
funding schedule that that requires. But you are correct, it is 
substantially more than is being allocated in the budget today. 
Budgetary resources which are allocated today support a 
delivery of March 2015 for the Orion Crew Exploration Vehicle.
    Rick, if you could give them a funding schedule required to 
make the September 2013 date come true.
    Dr. Gilbrech. Certainly. And I just also wanted to open 
that this is my first hearing, it's a new experience for me. 
I've been in the job 6 weeks, but I'm real excited about it. 
And I also wanted to state my--I guess, my thanks for the 
support of this committee and the members for the great things 
that we've seen from your support in NASA.
    But, yes, the funding profile now, to bring us back to 
2014, would be a $350 million infusion in FY09 and a $400 
million infusion in FY 10. To accelerate that another year, to 
September 2013, would require a billion dollars in FY 2009 and 
a billion dollars in FY10. And that's about as far, 
technically, as we can take it, because of the technical 
challenges we have. Right now, the J-2X engine is the pacing 
item on our initial operating capability, so that really sets 
the line in the sand, as far as what we can technically 
achieve.
    Senator Hutchison. So, really, under the very best of 
circumstances, the earliest that we could have the acceleration 
to 2013 would be with a billion dollars in next year's budget 
and a billion dollars in the following budget, in addition to 
the core NASA budget----
    Dr. Griffin. That's correct, Senator. Or else, obviously, 
an agreement not to do a billion dollars of other work 
elsewhere in NASA in order to do this.
    Senator Hutchison.--well, I would say that we will look at 
next year's budget as an alternative as we are going through 
the budget process in the Appropriations Committee, and perhaps 
there might be a way that we could look at a billion-dollar 
infusion, but possibly some of that be offsets in other 
programs, if we could come to an agreement on that. And I don't 
know, because I haven't looked at next year's--I don't have 
next year's projections. But I would like to look at that, 
because it's a worthy goal. And if we can highlight for the 
American people the consequences of not going forward and the 
additional almost 2-year gap between September 2013 and March 
2015 a year and a half--I think that it would be a priority 
that perhaps our President and the American people would think 
is a worthy goal. And I certainly intend to try to make that my 
goal.
    Let me ask one more question, and then I know the chairman 
has others.
    Senator Nelson. Help yourself.
    Senator Hutchison. And that is----
    Senator Nelson. Take as much time as you want.
    Senator Hutchison.--looking for other alternatives, to what 
extent could the European Automated Transfer Vehicle, the ATV, 
or the Japanese Transfer Vehicle, HTV, be able to assist in 
meeting cargo delivery requirements of the U.S. portion of the 
ISS in the future?
    Mr. Gerstenmaier. Again our plan is--we've laid out the 
schedule for the remaining Shuttle flights--to leave Station 
assembled and in good configuration, and we're prepared for 
contingencies--and, in those, we're going to pre-position some 
spares with the Shuttle onboard Space Station, so that will 
allow us to fly Space Station in a robust manner for a period 
of time with very limited delivery capability. And, as you 
discussed, we'll have available from our partners, because of 
their agreements with us earlier on in the Space Station as 
part of their contribution to Space Station, we'll have the 
Automated Transfer Vehicle to use to carry some cargo up. That 
will fly the first time next year, in the--early next year, in 
January or February. And then, the Japanese vehicle comes 
online in July of 2009. It has the added capability of carrying 
external spares, like equipment that can fit in the back of the 
Shuttle, so that adds--gives us a lot of capability to also 
keep flying Space Station. And, again, we have those laid in 
our basic plan. But then, on top of both of those, we're 
looking to commercial orbital transportation, essentially to 
fill in the lion's share of that cargo.
    So, the way we've laid it out is, we have what our partners 
are already giving us for the Automated Transfer Vehicle and 
for the Japanese HTV vehicle, and then, on top of that, or what 
we really need, is commercial orbital transportation, and if 
that comes online, we'll fly about--roughly 10 metric tons per 
year or so of cargo up on those commercial vehicles that are 
online.
    And we have robustness in our series that this hardware and 
vehicles don't need to be online immediately after Shuttle 
retirement. We have some ability with the spares pre-positioned 
onboard Space Station to keep Station viable for a period of 
time until commercial comes online or the ATV or HTV are 
available to help.
    Senator Hutchison. Well, except that we do have to get our 
people up there in some way. So, would that be another option, 
beyond the Russian contract?
    Mr. Gerstenmaier. We're looking, as kind of a follow-on to 
the commercial orbital transportation, there is a--an activity 
that Rick is managing, and--the Commercial Orbital 
Transportation System, capability D, which could potentially 
bring commercial crew transportation, maybe in that time-frame. 
The first thing we think is important is for them to 
demonstrate the ability to carry cargo, to show that as a 
proven capability, that it can be available on a schedule and 
with the right reliability. Then, if those same systems would 
make sense to then transport crew, that could be another 
alternative to the Russian vehicles.
    Senator Hutchison. Is there anything that we're doing, with 
either the Russian Space Agency or anything internally in our 
program with Shuttles, that is in any way detracting from the 
potential commercial development?
    Dr. Griffin. Senator Hutchison, in my opinion, no, NASA has 
set aside a substantial budget as an incentive for COTS 
providers--Commercial Orbiter Transportation System--COTS 
providers, if they meet their milestones. And we have stated 
repeatedly that we are--our budgetary baseline features the use 
of such commercial transportation, and that we can use all of 
it that can be supplied, even by the most optimistic 
projections of supply. So, we can and will use it if it comes 
online. There is nothing that we are doing with the Russians, 
frankly, or with the Shuttle, that would make those statements 
untrue.
    Senator Hutchison. Do you have any estimate, at this time, 
that there is one or more commercial system that you could 
foresee as a realistic possibility, as of 2010, being an 
alternative for carrying either people and--certain types of 
cargo, spares, et cetera, or at least people?
    Dr. Griffin.  I think, 2010 would be a bit optimistic. One 
of the winners of our earlier round of COTS agreements, Space 
X, is, I think, showing good progress for--toward cargo 
delivery in the post-2010 environment. People will inevitably 
come, later. I believe that they can get there. I do believe 
that they can get there, but it will not be immediately post-
2010. We are in the middle of a second round of competition for 
a new COTS agreement, looking for another provider. I'm 
optimistic that that will bear fruit, as well, but not 
immediately after 2010. In the period between 2010 and the end 
of--between 2010 and 2012, our only option, as I see it, to put 
crew on orbit will be to buy seats from Russia. I regret that. 
I've stated many times that I regret that we are in a position 
as a nation where that is our only option. But that is, at this 
point, our only option.
    After 20--after January 1st of 2012, we no longer have the 
legal authorization even to buy Soyuz seats from Russia. And 
so, at this time, the only option the United States will have 
to put its own astronauts onboard the Space Station will be via 
commercial means, if they materialize.
    Senator Hutchison. Thank you.
    Senator Nelson. All right. I want to follow up on the line 
of questioning of Senator Hutchison.
    The NASA authorization bill, now law, of 2005 requires you 
to either pre-position International Space Station spares or 
maintain sufficient cargo launch capability during that gap, 
which we're now estimating to be at least 5 years, unless we 
get the additional funding.
    Now, doesn't this make the two contingency flights, you've 
got ten flights to assemble the Station, you've got one to go 
to Hubble, and the remaining two are contingency flights, 
doesn't that make them mandatory and not optional?
    Dr. Griffin. My position all along has been that they are 
not optional, that we have labeled them ``contingency flights'' 
because they are less critical than the assembly of the basic 
Station. But my position has been that they are mandatory, for 
the reason that you state: we need to pre-position certain 
spares for the Station on orbit, and those spares are not 
capable of being brought up by Progress or by any other means 
of which we know, aside from the Space Shuttle. So, yes, sir, I 
would agree with you.
    Senator Nelson. OK. Now, we talked earlier about four 
flights a year, particularly in 2009 and 2010, and, at that 
point, you only had two orbiters, so it's a pretty spotty kind 
of thing. You've indicated that you think that you can do it. I 
think it's our obligation to point out, as the oversight 
committee, that it was in the losses of Challenger and Columbia 
that the investigations found that the schedule pressure was a 
contributing cause to the accidents. Therefore, I am just 
bringing up this hard cutoff date again.
    Mr. Gerstenmaier. Again, I think we're very aware of that, 
we're very conscious of that schedule pressure. We talk about 
it every day. And where we sit today, with being able to end in 
March of 2010, and then we still have until September 30, we 
have 6 months of margin in the system. When I talk to our team 
and we go look at things, we think we have enough margin to go 
pull this off. We know that there'll be some hurricane problems 
that'll cause some rollback. That's planned in there. We know 
there is going to be potential for other Shuttle delays for 
various situations. We may have some contingencies onboard 
Station, as we've just seen. And we've factored all that in as 
much as we can in our planning, and we're trying to be as 
robust as we can.
    I would add, even the solar array repair that we just did, 
the thing that is unseen is how much preparation went into that 
activity before it actually occurred. You know, we had already 
analyzed the solar array in a partially deployed configuration, 
so we knew immediately we were in no jeopardy and we didn't 
have to do anything immediately when that array got hung in 
this intermediate condition. So, we had been prepared for that 
contingency. We had also analyzed the ability to cut the 
guidewire, which we did on the EVA, so we knew that that was an 
option, to go cut the guidewire, if it happened to snag. We had 
seen the wire, during retract, actually snarl a little bit, so 
that gave us a clue there might be a problem there. So, we 
actually spent all that time in preparation before the flight, 
and, during the flight readiness review, we actually showed a 
video of the deploy of the guidewire fitting through the 
grommets on the solar array, analyzing the situation, and we 
discussed all that analysis. So, again, we have enough time in 
the schedule to be fully diligent, to look at all the problems, 
to be prepared and be ready to react. We may get something 
that's big, and, if we do, we'll stand down and we'll do the 
appropriate thing and not go fly. So, I stress that to the 
teams all along. We don't know if we're going to make December 
6 right now. We have two critical EVAs next week, on the 20th 
and 24th, and I don't see any pressure on the teams. If we 
don't get those done, we'll move the flight into January, and 
we'll see where we stand.
    So, again, I think we have the right schedule laid out, 
there is not undue pressure on the teams, and we're being extra 
diligent to make sure we don't put undue schedule pressure on 
ourselves.
    Senator Nelson. All right. Everything that you've said is 
true, but you know from history what happens and how delays 
happen. What I want you all, I want all of us, to focus on is, 
remember to what the President's Vision for Space Exploration 
said, ``Retire the Space Shuttle as soon as assembly of the 
International Space Station is completed, planned for the end 
of this decade.''
    So, I think it's our obligation to remind you of the 
President's Vision for Space Exploration, of the past pressures 
that, were in part contributors to Challenger and Columbia, and 
that you've got a robust schedule with only two orbiters left 
in the last 2 years.
    I think the point is made. Let me move on.
    Now, it's one thing, on your manifest, to conclude, in 
those ten flights, the ISS infrastructure, but then you need to 
outfit the Station so that it can be what Senator Hutchison 
took the lead in determining and designating it as a National 
Laboratory. Especially when you consider the fact that we've 
spent $50 or $60 billion on this. I have shared this with you, 
Dr. Griffin, before, about my concern that there are science 
payloads that ought to be on the ISS, that have been built and 
tested at great expense, and thus far in the manifest that 
you've set out, they're to be left on the ground. One of those 
is the Alpha Magnetic Spectrometer, which cost a billion and a 
half dollars to build. Have you made any progress in finding a 
ride so that the AMS could be located and placed on the 
International Space Station?
    Mr. Gerstenmaier. Yes, again, the problem with that is, we 
need those flights for the spares that we're going to need to 
outfit Station to keep it in a robust flying configuration. So, 
they're--we've looked carefully at what's on those flights, and 
there is nothing we can remove from those flights to make room 
for the AMS to fit out in the cargo bay. Those spares that are 
on the flight and the cargo that's there, unless something 
dramatically changes in the future, that equipment is going to 
be needed on Station to keep the Station in a robust and spared 
configuration, as you talked about. So, they don't fit on 
those--AMS doesn't fit on those spare flights.
    Now, we also have included some payloads and research 
equipment on those remaining flights. There are some combustion 
racks, some other large facilities that will go in the Space 
Station, that will enhance its ability to be a National Lab. 
So, we haven't--in the remaining flights, we haven't totally 
cut out all the science, as you've described; there are 
substantial large facility-class payloads that will fly in 
those remaining flights that are part of the manifest. So, 
we've done our best to protect the intent of where we want to 
head with the Space Station as a National Lab, and to use it 
effectively in the future. So, we've got a lot of internal 
equipment; the problem is, we have a shortage of external 
cargo-carrying capability.
    Senator Nelson. And yet, the whole purpose of having an 
International Space Station designated as a National 
Laboratory, by Senator Hutchison, is to be able to do these 
extraordinary scientific experiments that hold purpose and 
promise, such as the Alpha Magnetic Spectrometer. And so, this 
is almost like cutting off our nose to spite our face.
    Let me ask you this. NASA is on the hook to deliver 50 
metric tons of cargo to the ISS during this gap. That includes 
30 tons of carriers, or a total package of 80 metric tons. Is 
that correct? During the gap.
    Mr. Gerstenmaier. Yes.
    Senator Nelson. And you've got that allocated out, that the 
Europeans have the responsibility for so much, the Japanese 
have the responsibility for so much, the Russians, so much, and 
America, what we just mentioned, has 50 metric tons of cargo.
    Now, in your written testimony, NASA's baseline is to 
purchase cargo launch services from commercial providers, 
including, as you mentioned, the COTS. Here we are, less than 3 
years prior to the retirement of the Shuttle. Do we have any 
commercial carriers that have demonstrated this capability?
    Dr. Griffin. We don't have demonstrated commercial 
capability, at this point. Of course, we do have existing space 
transportation capability for unmanned spacecraft, in the form 
of the Atlas and Delta fleet. We are putting out, in 2009--and 
we are putting out for selection in 2009, an RFP for such 
commercial capability, and we expect to have people respond to 
it. In fact, I know that they will.
    One of the requirements for such commercial capability is 
to deliver the cargo that we need in close proximity to the 
Space Station, such that it can be brought onboard. So, we 
believe that, in the time that we have available, that this 
capability to deliver cargo in an unmanned mode to the Space 
Station can be brought online and that we can meet our 
obligations in that fashion.
    Senator Nelson. And so, if I can restate what you just 
said, and maybe you want to amplify, that you think, within 
this 3-year period, that you're going to be able to develop and 
qualify a launch vehicle and a transfer spacecraft that can 
dock with the ISS.
    Mr. Gerstenmaier. We currently, under the COTS Phase 1 
activity, have a demonstration activity where we're going to 
take a vehicle to Space Station and actually demonstrate the 
ability to dock to Space Station under existing funded Space 
Acts. And that's the Space X Project that you've talked about. 
And that involves a series of several test flights, including a 
docking to Space Station in 2009. And that will demonstrate 
that that capability is available. So, we don't have it today, 
but we have a plan to proceed forward to demonstrate and show 
that that capability is there.
    Senator Nelson. Within 3 years. I hope you're right. Now, 
let me ask you, how long did it take the Europeans and the 
Japanese to develop their transfer vehicles?
    Mr. Gerstenmaier. Well, it's taken substantially longer, 
as----
    Senator Nelson. Like about 15 years?
    Mr. Gerstenmaier.--if you began at the very beginning, yes.
    Senator Nelson. Well, as you know, as we've discussed 
privately, I support COTS, I have worked to make sure that the 
little glitches were ironed out at Cape Canaveral to get them a 
launch pad. I hope for the best, but realistically, to think 
that all of this is going to happen with an inexperienced 
company within 3 years is not really for us to plan totally on. 
So, as NASA does so well, what is your backup?
    Mr. Gerstenmaier. Again, what we've done is, we're looking 
at using the Automated Transfer Vehicle and the Japanese HTV 
Vehicle as a backup. And then the other piece is that we're 
going to pre-position spares that allow us to fly for a certain 
period of time, with essentially no logistics capability, to 
Station. So, it's--those three pieces are essentially the 
pieces of our backup.
    Senator Nelson. Japanese, European, and no logistics, those 
are your three.
    Dr. Griffin. Well, the--when we say ``no logistics,'' the 
phrase I would use is ``pre-positioning the logistics.'' That's 
what the----
    Senator Nelson.--by the two----
    Dr. Griffin.--by the two contingency----
    Senator Nelson.--remaining----
    Dr. Griffin.--flights.
    Senator Nelson.--contingency flights.
    Dr. Griffin. Right. So, to purchase additional HTVs from 
Japan or to purchase additional ATVs from Europe would be part 
of our backup plan.
    Sir, I don't want to leave this hearing, or this Committee, 
with the impression that we are in a good position. We're not. 
As Admiral Gehman said in his report on the Columbia Accident 
Investigation, the failure to plan for a successor to the Space 
Shuttle and to bring it online in a timely way was a failure of 
U.S. strategic planning. No one agrees with that position more 
than the people at this table. We are not in the position that 
I would wish the United States to be in as we take stock of our 
program of spaceflight following the loss of Columbia and then 
moving forward to the finishing--to the completion of the Space 
Station and its utilization.
    Senator Nelson. Well----
    Dr. Griffin. We are, with those facts on the table, I 
think, doing the best that can be done.
    Senator Nelson. And that's the purpose of this hearing, to 
flesh this out. Now, let me ask you this. You've just testified 
that you have to have, as a backup the Japanese and the 
European's ATV vehicles, and, of course, they have their own 
responsibility for getting cargo to the ISS.
    Dr. Griffin. So, that would--our purchases would be in 
addition to their responsibilities on their end.
    Senator Nelson. OK. Now, we've got less than 3 years before 
Shuttle is shut down. Are you sending money to the Japanese and 
to the Europeans now to start building those ATVs and HTVs?
    Mr. Gerstenmaier.  No. Again, we've done the planning, 
where we've identified when we would need to start funding--or 
to make those purchases. We know when that latest date is.
    Senator Nelson. And when is that?
    Mr. Gerstenmaier. 2009.
    Senator Nelson. And that would give you the capability of 
getting----
    Mr. Gerstenmaier. That would give me an HTV----
    Senator Nelson.--the cargo----
    Mr. Gerstenmaier.--that would give me a cargo HTV in 2012. 
And I can bridge the gap between 2010 and 2012 with the pre-
positioned spares onboard Space Station, with a higher failure 
rate than we've observed today. So, I have margin in what I'm 
pre-positioning. I can fly that gap until 2012, and then 
utilize their ATVs and HTVs they're already providing us to 
help augment that same gap.
    Senator Nelson. As long as your two contingency flights are 
able to pre-position that.
    Dr. Griffin. That's affirmative.
    Mr. Gerstenmaier. That's correct.
    Dr. Griffin. And that is the reason why we don't feel--I--
no one is more sensitive than I to the position that we've 
taken, that we do not have a Shuttle flight available for the 
AMS, because, after all, that, too, was an international 
agreement. But to make a Shuttle flight available for AMS 
requires removing this cargo that we spoke of that is our plan 
on how we get through the gap on Station logistics.
    Senator Nelson. Or possibly we could be planning for 
purchasing those additional ATVs from the Europeans and the 
Japanese, and free up one-quarter of, 25 percent of one of 
those cargo bays on a contingency flight and get an important 
scientific instrument up there.
    Dr. Griffin. Well----
    Mr. Gerstenmaier. I would----
    Dr. Griffin.--I'm sorry, you go first.
    Mr. Gerstenmaier. I would just say that the cargo that the 
Shuttle is carrying is unique to the Shuttle. It's external 
cargo that is of large magnitude--and I think we provided this 
in a written response to you--but it's large rotary couples, 
it's large joints, it's things that can only uniquely fly on 
the Shuttle. They don't fit well on an ATV; in fact, they will 
not fit on an ATV, because it doesn't have cargo-carrying 
capability, and most of them will not fit in an HTV's external 
cargo capability. So, we have--uniquely are using the Shuttle 
to carry the cargo that only it can carry. It also carries the 
large stowage platforms that are needed to be on the outside of 
Space Station so we can hang all these spares on the outside of 
Space Station. We need both of those from those Shuttle 
flights. So, the cargo that the Shuttle is uniquely carrying 
has to be carried by the Shuttle.
    Senator Nelson. So, they're not contingency flights, then; 
they're necessary flights.
    Dr. Griffin. As I've stated, I believe that to be the case, 
yes, Senator.
    Senator Nelson. Well, why are we calling them 
``contingency''?
    Dr. Griffin. I can't answer that. We started calling them 
``contingency flights'' a couple of years ago, and maybe it 
wasn't a good name. We----
    Senator Nelson. Well, let's call them----
    Dr. Griffin.--we need those flights, and I've been quite 
clear about that all along. I have--my position on that has 
never changed.
    Senator Nelson.--flight 12 and flight 13.
    Dr. Griffin. Now, to----
    Senator Hutchison. Could----
    Dr. Griffin.--I'm sorry. Yes, Senator? Go ahead.
    Senator Hutchison. I didn't mean to interrupt you if you 
were continuing.
    Dr. Griffin. I was going to make the point that, if one 
wished to fly the AMS, that the more productive approach, 
rather than clearing cargo off the Shuttle and putting the AMS 
on, it would be more productive to think about putting the AMS 
on an expendable vehicle, at some point, and flying it up. And 
that, too, of course, would require more money, but could be 
done, technically, more easily than it would be possible to 
remove Shuttle cargo from the Shuttle.
    Senator Hutchison. Bingo. That's exactly what I was just 
getting ready to ask you. From the line that----
    Dr. Griffin. Well, we've estimated----
    Senator Hutchison.--Senator Nelson was going, I was going 
to ask you, is the AMS potentially a cargo that doesn't have to 
be--that isn't going to be on the Shuttle, as you have said, 
but could go into one of these other commercial delivery 
systems?
    Dr. Griffin.--well, some amount of rework would be 
necessary, because, of course, the AMS is, today, planned for 
Shuttle integration. So, some amount of rework would be 
necessary. But we did, over a year ago, in response to this 
Committee's and other requests, we did look at what it would 
take to put the AMS on an expendable vehicle. And in the 
neighborhood--I'm going to use a rough estimate, because we 
have a range of estimates, but in the neighborhood of $350 to 
$400 million would be required for the--to pay for the 
expendable launch vehicle and to do the reintegration necessary 
to fly it up. Now, that money is also not in our budget, just 
as the extra Shuttle flight to fly it another way is not in our 
budget. I'm speaking now merely of technical possibilities.
    Senator Hutchison. OK.
    Mr. Gerstenmaier. And I would add, there is a significant 
amount of rework on the AMS side to enable that to occur, as 
Mike said. And I think we've progressed from when we did this 
first study, that the AMS is now built up in a more 
manufactured state, so there is actually even more rework than 
when we did the study, about a year ago, that would have to be 
undone to make it compatible with an expendable launch.
    Senator Hutchison. Well, I hope that I'm not, then, 
misreading what you're saying, that there is a ray of hope that 
we might be able to get the AMS on the Space Station at some 
future point, because I think the hearings that this Committee 
has had--and I know that it is also the case on the House 
side--have given us the impression that there is a lot of 
potential with the study of cosmic rays as a major form of 
energy--well, a major, perhaps, key to unlocking the dark 
energy that is out there, and then maybe potentially having a 
connection with energy sources for the future, for the world to 
use. And if that is the case, then perhaps after, or at the 
same time, in conjunction with some of these other 
opportunities, that we might be able to have that also as a new 
use for the Space Station research. Am I getting that 
correctly?
    Dr. Griffin. I believe so, Senator. I am an engineer. We 
are engineers. I can't speak to the scientific merit of the 
AMS. I am content to rest on the judgment of the scientists who 
have originally approved the program.
    The issues that we're speaking of here today, in flying or 
not flying the AMS, or any of the other options we have 
discussed about, come down to budgetary constraints. We know 
how to do that which is desired to be done, but the options 
that you have discussed today--flying the Space Shuttle longer, 
flying the AMS or not flying the AMS--come down to budgetary 
limitations.
    Within the budget that is allocated to NASA, I believe--I 
firmly believe that we have given you the best program of 
activity to meet the goals of the Authorization Act that we can 
give you.
    Senator Hutchison. As you know, I am the one who pushed--
and Senator Nelson helped in doing that--to designate the U.S. 
portion of the International Space Station as a National 
Laboratory. My purpose in doing that was to try to get 
alternative sources of funding for new potential research 
projects so that everything wouldn't have to come out of NASA 
because of the budget constraints that we have been hearing 
about for--ever since I've been in the U.S. Senate. It's 
certainly a bipartisan message, that we have gotten from every 
President I have served with, that there are budgetary 
constraints. So, I thought designating as a National Lab that 
U.S. portion of the ISS would provide a potential for opening 
that up to other agencies. I couldn't have been more excited 
than the day that you signed the Memorandum of Understanding 
with the NIH, because we know there has--there is so much 
potential in health research in the microgravity conditions. 
But I also believe, as I know Senator Nelson does, that there 
are other scientific capabilities in space, and we shouldn't 
just be studying the effects on humans in space, that there are 
other potentials, one of those being energy, from the testimony 
that we have had in hearings. So, I know you know that I am a 
very strong supporter of looking for alternatives for the AMS 
that might open doors to future energy research, and, as we are 
expending enormous sums of money and authorizing enormous sums 
of money to look for better sources of energy for our country, 
I hope that that is an avenue that we can continue to pursue in 
innovative and creative ways.
    Let me ask you, Are there other Memorandums of 
Understanding, other agencies or organizations, now in the 
works for research to be done on the Space Station? I'm hoping 
that the National Science Foundation might be a potential, 
possibly the Department of Energy. Are those--what do you have 
on the drawing boards?
    Mr. Gerstenmaier. We're beginning some preliminary 
discussions with several other agencies. We've also put some 
requests out for information of some commercial folks that 
might be interested in utilizing Station, and we're getting--
we're just kind of at the formulation phase, where we're 
starting to get some of those responses back, we're starting 
dialogue with them. We haven't progressed very far, in terms of 
an MOU kind of stage. We're still kind of in an understanding 
research stage. But I will tell you, there appears to be a lot 
of interest out there in utilizing Space Station, so this seems 
to be a very productive thing that's heading forward. We're 
sorting through our options, looking to see what makes sense, 
starting the dialogue, and beginning forward--to come forward. 
And I think next spring we should come forward with some more 
definitive discussions along those lines.
    Senator Hutchison. And are you envisioning that there will 
be some offset in the transportation costs for putting 
experiments, and possibly people, in the Station for NASA, that 
we would be able to do some sharing of expenses for NASA 
projects, as well as others?
    Mr. Gerstenmaier. We're looking at that now, or at least 
starting some of those discussions. As we talked about, the 
Commercial Orbital Transportation System's coming online, if 
they can bring a reduced price to orbit, you know, we would 
help facilitate some of these commercial groups and other 
government agencies to go utilize some of the same systems that 
they were going to use to carry cargo to Space Station. So, we 
think that helps, you know, bring along the transportation 
market, so it's not only the NASA needs for that market, but 
now it's a broader, potentially commercial and other government 
agency market to the transportation side. So, we're starting 
some of those discussions, again, with folks along the 
transportation lines, showing them what's available on the 
commercial transportation side to move forward.
    So, again, we recognize that that's a concern that needs to 
be worked, transportation to Station. We're looking for the 
other providers to help with a large portion of that 
transportation piece. You know, we provide the basic sustaining 
engineering, operation of the research, but we're looking to 
them to pick up a larger piece of the transportation. But we're 
starting, again, those discussions and showing them what's 
available on the commercial transportation side.
    Dr. Gilbrech. Yes, Senator, if I could add onto that, we 
also, by design, put this--the amount of funding NASA's 
investing so that they wouldn't be solely dependent on NASA, 
they would look to other customers and try to foster that 
market and spur that interest. And so, that was, by design, why 
we put some fundraising on their side of the coin, so they 
would go look for those types of markets to spur that.
    Senator Hutchison. Well, that is certainly the purpose that 
I had in mind, not only to assure that we have the utilization 
of the Space Station for more than just the impact on the human 
body of being in space, but other viable--either commercial, 
university, or government agency projects, and to share the 
costs so that NASA would have some offsets and, therefore, be 
able to do more in its core responsibilities. So, that was the 
dual purpose, and it seems to me that, from the things that you 
have said, although neither Senator Nelson nor I am going to be 
happy with a gap in the Shuttle and the Crew Exploration 
Vehicle, but, nevertheless, if we can add the money for these 
priorities to close that gap and at least get to the 2013, 
which is going to be a priority for me, if we can get to that 
point, then it looks like you do have other options out there 
for both cargo and commercial capabilities--other countries and 
commercial capabilities for cargo delivery, and then, possibly 
down the road, even human capabilities. And I'm very, very 
encouraged about the potential for the AMS at some point to be 
a part of the Space Station, because I just think there is too 
much potential there for us to turn our backs on. I mean, the 
whole NASA experiment was a huge leap, it was a huge risk, and 
we took it, and we have reaped the rewards. And I think there 
is a potential here, in energy research, for the AMS and the 
use of the Space Station for another type of research. So, I'm 
encouraged.
    And I guess I will just ask if the engineers, who never 
want to be encouraging, might say that, yes, there is a ray of 
hope out there, that maybe we can take NASA and the research 
and the Space Station to the next step. Dr. Griffin, like 
Senator Nelson, I've worked with you for a long time, I respect 
you, I think you have done enormous things for NASA, but you 
are not an encourager. So----
    [Laughter.]
    Senator Hutchison.--if I would--if I could just end by 
asking if perhaps there is the ray of hope that you do see that 
future that we have envisioned out there, with a lot of 
creativity on our part, backed up with the dollars that I know 
you need.
    Dr. Griffin. Yes, Senator, I'm sorry that I'm not an 
encourager. I want, never, ever, ever, to promise you something 
that I can't deliver. What I have tried to say today is that I 
share--we share the same vision that you do. It would be silly 
for this Nation to finish the Space Station and not to use it 
appropriately. That would be silly. What I have tried to say 
today is that, within the budgetary allocation that we have, 
that we believe we have prioritized our activities correctly. 
And I don't mean for that to be an arrogant statement. We 
believe that we have set the best priorities that we can within 
our budgetary allocation. If you and your staffs believe that--
also, that we have set our priorities correctly, and if you 
then find shortfalls in what we are doing, then the only place 
I can turn is to say that we are doing all we can within the 
budget allocations that we have. And I believe that to be so. 
But I share the vision that you have, and I am--you know, I 
intend to be responsive to your priorities.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman.
    Senator Nelson. And you can see, Dr. Griffin, that this 
line of inquiry by both of us is not only bipartisan, it is 
nonpartisan. And I have always maintained that there shouldn't 
be anything having to do with partisanship in America's Space 
Program. It's a nonpartisan activity.
    Again, I remind you that the purpose of this hearing is 
that we are looking ahead, beyond this Administration, which 
only has a little over a year left, because decisions that are 
being made now are going to have profound implications for the 
next Presidential Administration. If we're fortunate to have a 
future Administration that is wildly enthusiastic about our 
Space Program and just starts shoveling money to NASA.
    Dr. Griffin. Be still my thumping heart.
    [Laughter.]
    Senator Nelson. What we're concerned about is that there 
are, in fact, decisions being made today that are going to 
preclude some of those things, and I want to get into some more 
of them. Before Senator Hutchison has to depart, one of the 
concerns that I have about AMS not going on the Shuttle is the 
fact that it's so much more expensive for it to get a ride on 
an expendable vehicle, and then you've got to have a transfer 
vehicle to get it over to the Station; whereas, the Shuttle 
would take it straight to Station.
    I don't have a dog in this fight. The lead university on 
this is Massachusetts Institute of Technology. There is a 
consortium of several universities, some of whom are in 
Florida, but what we're looking at is the science and the value 
to the country and the opening up of the heavens and 
understanding the development of the universe and all of this 
kind of stuff that an experiment like AMS would bring to us. 
And so, we keep trying to wrack our brains as to how, before 
it's too late, we can get this thing up to the Space Station.
    Senator Hutchison. Well, I----
    Dr. Griffin. I don't have another Shuttle flight.
    Senator Hutchison. Well, I was going to ask the question, 
but Mr. Gerstenmaier answered it, which was why you, in your 
priority list, didn't put AMS. And his answer that came before 
I asked the question was that other pieces of the Station that 
couldn't be carried up in any other way had to be done first. 
But then, the hope for the future is that something, 
reconfigured, might be able to take it up--gave me some hope 
that it wasn't all lost. I just agree with Senator Nelson on 
the importance of it. I think it's a whole new area, this 
energy potential, and I am convinced by Dr. Ting at MIT, that 
it's worthy. And, to my knowledge, there is little or no Texas 
involvement. I just think that if we're going to have the 
vision of NASA to do what can't be done in the private sector, 
realistically, to take our country ahead of anyplace else in 
the world in the exploration, and the use of space, that we've 
got to do those things that I think are the priority. And you 
didn't put this in that priority list, but I certainly--if we 
had the capability to extend the Shuttle, certainly what 
Senator Nelson says makes a lot of sense. I really believe in 
this line of research for our country, and I hope that we can 
figure the way to do it, either on an extended Shuttle or in 
some way patching it so that it can go in a cargo delivery 
service.
    Senator Nelson. We need to get Dr. Griffin to be an 
encourager.
    Senator Hutchison. He is notoriously an engineer.
    [Laughter.]
    Senator Hutchison. Say no more.
    Thank you.
    Senator Nelson. Well, thank you for coming.
    I'm going to go on and continue a few more thoughts here.
    Senator Hutchison. Thank you.
    Senator Nelson. All right, thank you.
    Let's look to the future. Mechanisms fail, things are 
damaged, et cetera. How do you plan to address repairs or 
replacement of large Station elements if we don't have a 
Shuttle?
    Mr. Gerstenmaier. Again, we're pre-positioning a large 
number of those components. We'll have several control moment 
gyros, which weigh about 350 pounds, pre-positioned on the 
outside of Space Station. Those will be available for change-
out by the crew onboard Space Station, if they need to be. 
There's a large fluid rotating coupling that controls all the 
fluid flow from the large radiators you see back into Space 
Station. That device will be pre-positioned on Space Station to 
go ahead and be replaced. The--all the components that are on 
the outside that have replacement parts and pieces, we will 
have those pre-positioned. For the robotic arm onboard Space 
Station, some of the joints, those are all replaceable; we'll 
pre-position portions of those joints. We're going to fly up, 
next year, a special-purpose dexterous manipulator--it's a two-
armed robot that will allow us to do some activities--today 
that we can only do EVA--we'll be able to do those activities 
robotically. We're going to actually fly a spare arm for that 
device, in case that arm breaks and has problems. So, again, if 
you look at what we've done, we've tried to anticipate with our 
best engineering analysis and best knowledge of anything and 
everything that can fail, and we've tried to pre-position 
pieces in space.
    The other thing that we're doing here is, we're really 
learning how to operate for sustained periods of time away from 
the home planet, which is exactly what we need to do for Moon 
and Mars. If you remember, during the Columbia downtime, you 
know, the treadmill that the crew runs on, one of the gyros--
it's probably a 75-kilogram device that provides stability for 
the treadmill--it broke, and we didn't have the capability to 
fly that on the Shuttle, but we were able to fly up, 
essentially, a bearing and a bearing puller from a hardware 
store in Texas, and we were able to go ahead and pull that 
bearing, which weighed about 8 ounces, replace it, and restore 
full functionality back to that treadmill. We did the same 
thing with our spacesuits. A small pump, about the size of your 
fingernail, failed internally to that spacesuit. We didn't 
think it was possible to dismantle the spacesuit on orbit and 
replace that small pump, but we were able to do that and 
repair. So, again, we may be forced to do some ingenious things 
or repair in ways that we haven't anticipated, but that 
knowledge is critical to us when we go to the Moon to try to 
establish outposts, and when we go to Mars.
    So, the Station provides not only the scientific platform 
you talked about, but it provides an engineering basis for us 
to extend our knowledge and our ability to live off the home 
planet for extended periods of time. So, we've spared the large 
components, and, with our creativity and ingenuity, we think we 
have the capability to grow and continue to learn to allow us 
to go do exploration like we intend to go do.
    Senator Nelson. And, of course, that's one of the things 
that NASA does best, is the ingenuity that you bring to fixing 
problems. And you have our highest compliments on that.
    Looking to the future, I want to talk about the gap. Dr. 
Griffin, you've testified that what is now expected to be 2015 
before you could fly with humans, and that you could shorten 
that to 2013 if we could get you an additional $400 million in 
Fiscal Year 2008, just for the Constellation Program. In 2009, 
an additional $800 million; and in 2010, an additional $800 
million. And that is what you have laid out.
    Now, Senator Hutchison mentioned that her cut on the 
difficulty of getting it--I am wracking my brain, I'm working 
with Senator Shelby, Senator Mikulski, Senator Hutchison, as to 
how to get some additional money in, but we're confronting the 
hard reality that the White House has announced that it would 
veto it. I'm referring to an October 5th Houston Chronicle 
article, the whole thing was that we had gotten an additional 
billion dollars for NASA in the budget, and I quote from the 
article, ``The White House budget office renewed the 
President's veto threat Thursday, issuing a statement saying 
the overall bill includes an irresponsible and excessive level 
of spending.''
    The long and short of it is, I don't know that we're going 
to be able to get, in this Fiscal Year 2008 that we now have 
entered. I don't know that we're going to be able to get the 
additional funding for the Constellation Program.
    So, I've got to look to the future. And even if we get an 
Administration that would just start throwing buckets of money 
at NASA, you're saying that we're on down the road and that you 
can't catch up just by throwing more money at it, because 
you've got to have a lot of lead time for some of these things.
    I have a responsibility, now putting on my parochial hat, 
of looking out for the interest of the employees at the Kennedy 
Space Center. And, of course, that's going to be the Space 
Center that's going to be hit the hardest with regard to 
layoffs. So, I want to know how many jobs that you think, if we 
are on the present schedule of shutting down the Shuttle in 
late 2010 and not flying with humans until the early part of 
2015. How many jobs are going to be laid off at the Cape? 
You've got basically 15,000 employees, which include NASA and 
contractors.
    Mr. Gerstenmaier. We don't have a specific number, but 
we've been laying out plans to try to capture our--we have two 
competing things. We need to continue to fly Shuttle safely all 
the way to 2010, as you described earlier, so we need to keep 
our workforce in place for that. And then we need to provide 
them some--a future vision of where they need to go work. And 
there is going to be some downsizing during this period, just 
because of the efficiencies. But, again, if you look at even 
flying in 2015, there is a lot of preparatory work that needs 
to go in front of that. We need to, you know, begin some 
simulations, begin training, modify some facilities, change 
some equipment, and we're laying all that in place. You know, 
we're trying to give our workers a sense of the future. For 
example, the Ares I-X test flight, which his going to occur in 
2009, April, that flight will use some of our Space Shuttle 
workers today to go support that flight. So, they actually get 
a chance, while they're doing their Shuttle jobs, to actually 
support that test flight on Constellation. And we think that's 
a great chance to give our workers a sense of the future, to 
let them learn skills that will allow them to go work in 
Constellation. There are also some test flights that fall in 
that timeframe. There's an Ares I-Y flight that occurs in 
there. So, there is going to be activity at the Cape during 
that period. So, even though there is a gap, in the sense that 
we're not flying to Space Station, there is still a lot of 
activity that's there, and we're trying to lay in those 
detailed plans. But we don't have a specific number of how many 
employees will actually be retired during that.
    We're also looking at moving some activities from other 
areas within NASA to the Cape to help augment some of that, so 
the cuts won't be as steep as we've seen. So, again, we're 
trying to balance, across all the agency, how it fits.
    The problem, frankly, that we have is that there is no big 
single piece that we can put to fill in all that work, and we 
have to be more efficient. So, it's going to be small, little 
pieces, one at a time. For example, the--and Rick can elaborate 
more, as--you know, the Orion production facility down in the 
ONC building, that's an important activity. Some of the upper-
stage work'll get defined, et cetera. So, there is a lot of 
work that we've got to put together to get those plans, and we 
really won't have a specific number for an extended period of 
time, but I think we can show the vision for the future to fill 
in that gap, as long as it's a finite period of time.
    And, Rick?
    Dr. Gilbrech. And----
    Senator Nelson. If that gap is 5 years, when would you 
start that work on assembly of Orion and assembly of Ares?
    Dr. Gilbrech.--well, some of the early production work on 
Orion actually kicks off in 2009, so we have to do a lot of 
planning with Lockheed Martin and the Cape folks to get that 
early work onboard. And Bill and I are working very closely. 
We're 3 years away from the proposed last Shuttle flight, and 
we're very much attuned into this to try to minimize the impact 
to all of our workforce across our ten centers, but we 
recognize that Kennedy is especially--has potential to be 
impacted. We also have recently rolled out our lunar 
assignments, which is the first step in trying to define some 
of the work that we see going to the different field centers. 
And Kennedy has some significant new roles in situ resource 
utilization and some of the surface habitat work that will be 
new work for the Cape.
    Senator Nelson. But that comes later.
    Dr. Gilbrech. It comes later, but we also--it's the first 
step, for them to start projecting that. And, again, as I've 
said, this will kind of come in small steps, one contract at a 
time--we'll get a little more clarity as to what that content 
means for each of the centers--and one milestone that we go 
through at a time. So, I would like to give you a solid answer 
right now, but we just don't have enough clarity to be 
credible. As Mike says, we always want to be credible in what 
we tell you, so that's basically where we are.
    Senator Nelson. Well, the word is out in NASA that, with a 
5-year gap, after you shut down Shuttle, you are looking at the 
layoff of as many as 5,000 at the Kennedy Space Center. Is that 
true?
    Dr. Griffin. A variety of estimates have been produced that 
I've personally seen, and some of them go as high as that 
number, yes, Senator. I think that is on the high side of 
credible, but I do realize that some people have made that 
estimate.
    Dr. Gilbrech. And, as well, I'm--I mean, my goal is to 
close the gap from my side to try to beat the March 2015. But, 
again, we're holding the line there, because, based on the 
content that we've drawn the floor at, technically, and the 
budget we have, that's where we feel like we can credibly 
deliver. We hope that, as design reviews are behind us and 
contracts are put in place, that we can come and move that date 
forward and close that gap, but we want to hold that credible 
confidence level as we go forward.
    Other opportunities, too, the COTS program, if it's----
    Senator Nelson. Let me just stop you there, and we'll get 
to COTS in just a second.
    Well, first of all, I want you to understand that a layoff 
of 5,000 people hits me like a bolt of lightning, and would hit 
the Kennedy Space Center likewise. Of course, I am a part of 
all that is has met, and one of the things that it has met was 
in aftermath of the Apollo program, where there were the huge 
economic dislocations, the loss of corporate memory, the 
decimation of families in the layoffs that occurred in the 
course of the 1970s. And, of course, we were trying to do the 
new system, and there was that last Apollo flight, which was 
Apollo-Soyuz, and then it was another 6 years before we finally 
flew the Space Shuttle. You know a 5-year gap may turn into 6 
years, and it could turn into 7 years, and that's all the more 
pain and threats to America's Space Program because of the loss 
of that corporate memory and so forth.
    Here we are and it is what it is. The funding is here. 
Since we're looking to the future now, if we're able to 
convince the new administration to start shoveling some 
additional money, how much of that 5-plus-year gap can we make 
up?
    Dr. Griffin. Again, we--Senator, we share your concern. I 
think I've been very clear on that. And it's honest. We share 
that concern. We, too, want to protect our intellectual 
capability, our brainpower, our corporate memory. We don't want 
to be the source of economic dislocation in central Florida. I, 
too, lived through that period, and, with you, I can testify 
with complete honesty that it was very ugly. I have said, for 
two and a half years, I don't want to repeat it again--the 
earliest, at this point, at--given where we are, the earliest, 
at this point, that we could creditably promise a replacement 
capability for the Shuttle would be September of 2013. That 
would be a 3-year gap. Our budgetary resources today, apples to 
apples, same budgetary assumptions, support March of 2015.
    Senator Nelson. What I would like to do so that we can put 
this whole thing into context as we look to the future--and I 
want to ask this question for the record, and I want the record 
to reflect this, if you all would respond to us in writing. 
What are the planned workforce levels, and that's both 
government and contractors, at each NASA center in those years 
of the gap, from 2010 to 2015? Part of the reason that I'm 
asking, and I want the record to reflect, is that all those 
other centers are not going to be hit, there is not going to be 
a reduction in the workforce there, as there is at the Kennedy 
Space Center, under this funding scenario where we can't get 
any additional money right now. If you all will provide that 
for the record.
    [The information referred to is contained in the Appendix.]
    Dr. Griffin. We will, of course, sir.
    Senator Nelson. OK.
    Let me just end up with a couple of more thoughts here. And 
thank you all for your kindness in responding, and you've 
responded very forthrightly. I appreciate that. It is my 
responsibility to try to get our arms around this.
    The one thing that we haven't talked about is human access 
to the International Space Station. And, Dr. Griffin, in your 
testimony, you state that, when the Shuttle is retired we have 
no choice but to pay the Russians for human access to the ISS. 
American taxpayers have invested close to $60 billion for this 
American National Laboratory that is now an International Space 
Station. Now we're going to have to pay millions of dollars to 
the Russians in order to be able to use it, to get human 
access. That is the plan, is it not?
    Dr. Griffin. Through the end of 20--or through the end of 
2011, that is the plan, sir.
    Senator Nelson. Say that again.
    Dr. Griffin. Through the end of 2011, that is correct, that 
is the plan, is to pay----
    Senator Nelson. Well, what about from 2011 to 2015, until 
we have the new----
    Dr. Griffin.i--f commercial capability to fly crew between 
2012 and 2015 emerges, then, of course, we, NASA, will purchase 
such capability.
    Senator Nelson.--you're talking about the COTS.
    Dr. Griffin. I'm talking about COTS. If there is no 
commercial capability, then the administration would have to 
seek relief from the Congress on the provisions of ISNA, the 
Iran Syria Nuclear Nonproliferation Act, in order to be able to 
get another exemption to buy seats on the Russian Soyuz system.
    Senator Nelson. Do you have that exemption through 2011?
    Dr. Griffin. We have it through the end of 2011, at this 
point, from the Congress, yes, sir.
    Senator Nelson. OK.
    Now, that is the plan. That's the plan of NASA.
    Dr. Griffin. Yes, sir.
    Senator Nelson. We have to get humans to the International 
Space Station, and you're talking about a 5-year gap. And I 
want to show you why I think that that is an enormously 
perilous plan.
    Can anybody in America predict the geopolitics of Russia in 
the year 2012, particularly what we see are the actions of 
Vladimir Putin right now? The Wall Street Journal, in an 
article last May quote, ``The deepening chill in relations 
between Washington and Moscow is threatening U.S. companies' 
chances of winning at least two multi-billion-dollar business 
deals in Russia, according to Russian officials.'' Continuing, 
``With the Kremlin increasing the state's role in Russia's 
economy,'' which has became clearly apparent since the writing 
of this Wall Street Journal article last May. Again quoting, 
``analysts say its ability to use business as a political lever 
is increasing. The boards at Gazprom and Aeroflot are dominated 
by government officials.''
    What is becoming painfully apparent all over Europe right 
now, I can tell you, having just returned from an Intelligence 
Committee mission to those capitals, the Russians are buying up 
all the gas pipelines going into Europe, and they're going to 
be able to turn the spigot off, and they're going to have that 
economic power over Europe. Clearly, this is the plan.
    With regard to nonproliferation, look at the comments of 
Vladimir Putin as recent as his meeting with Nicholas Sarkozy, 
the President of France, of which he's making excuses for Iran 
and their nuclear program. And this is 2007. Can we predict 
what the geopolitics and Russia's stance is going to be in 
2012, with what we will see has been the trends in the last 
couple of years in Russia? Particularly with Putin, who now 
everybody believes is going to stay in power, one way or 
another?
    So, here we have a plan, set up by NASA, that is going to 
rely on us paying for Russian vehicles. At the same time that 
we're laying off maybe 5,000 people at the Kennedy Space 
Center, we're going to pay for Russian vehicles that we don't 
even know are going to be available to us as a result of the 
new geopolitics of a future Russia. Now, that doesn't sound to 
me like a good backup plan. Can you comment?
    Dr. Griffin. Yes, I can. I don't think it's a good backup 
plan, either. It is the only one of which we can avail 
ourselves, because today Russia has the only other human 
spaceflight capability for the Space Station that we can even 
consider. We are where we are as a result of prior decisions 
made by prior administrations and sustained by prior Congresses 
that have put NASA in a position where we can no longer promise 
to be able to deliver crew to Earth orbit after 2010. That is 
where we are. Given those facts on the ground, I have presented 
you with the best plan that I can conceive. I don't like it, 
and I would not like to leave this hearing with you having the 
impression that I do like it. I don't like it. I consider it to 
be unseemly in the extreme, and unwise, strategically, for the 
United States to be dependent upon any other nation for any 
other thing. I could not be more clear on that. This is where 
we are, and I am doing the best I can to plot our course out of 
it. I did not get us into this position. I am doing the best I 
can to get out of it.
    Senator Nelson. But----
    Dr. Griffin. And if you think I like it, you would be 
wrong.
    Senator Nelson. And, of course, you know my personal 
affection for you and the good job that I think that you're 
doing. And you are. I just want to get it on the record so that 
everybody understands this is a discussion that is often down 
in the weeds. We have now spent $60 billion investing in an 
International Space Station that Senator Kay Bailey Hutchison 
helped name a National Laboratory, and we're possibly not going 
to be able to get there, because Vladimir Putin might deny us. 
Or that we deny ourselves, because people like me are going to 
resist shoveling money to the Russians with him jacking up the 
price to exorbitant levels in the year 2012, while at the same 
time we're cutting up to 5,000 jobs that have been launching 
American spacecraft. That doesn't sound like a good plan to me.
    Dr. Griffin. Nor to me, sir.
    Senator Nelson. At the same time we've got a law on the 
books that says that if Russia is helping the proliferation of 
nuclear weapons in Iran or Syria, that we can't buy rockets 
from them. We've got three strikes against us right there, to 
utilize a $60-billion asset. And that just seems to me like a 
terrible plan.
    So, what do I do besides pray?
    [Laughter.]
    Dr. Griffin. I guess you need to hire somebody smarter than 
me, because I have not been able to figure out a better one. I 
take responsibility for the plan we have, going forward. I 
don't have a better one. I share your concern about it. We 
share your concern about it. I've been speaking on this point 
now for two and a half years. I don't have a better plan. I'm 
sorry.
    Senator Nelson. I want you to know my personal appreciation 
for all of your public service. And I want you to know, Dr. 
Griffin, how much I appreciate the professionalism that you 
have brought in some very trying times to NASA in the aftermath 
of the loss of another Space Shuttle, in trying to bring back a 
culture of safety.
    This is a little agency, and it's not being treated right. 
There is, within the bosom of most every American, the yearning 
to explore in space. We've got to give flight to that 
aspiration of Americans. That's why I wanted to focus on the 
future in this hearing today, on the decisions that we're 
making now because of budget constraints that are irrevocable 
with regard to the future of what we can accomplish and the 
consequences of these decisions now. For the future of our 
blessed little space program.
    Dr. Griffin. Yes, sir. And I would like--I would like to 
add to the concerns you've raised, that all of the dates that 
we have discussed, even--as Senator Hutchison would label me--
even as unencouraging as they are, will become worse if we have 
a full-year continuing resolution again, as we had last year.
    Senator Nelson. I don't think it will be as--well, Lord 
knows, it better not be----
    [Laughter.]
    Senator Nelson.--or else we are in a world of hurt. I think 
ultimately what's going to happen, since everybody's all wound 
around the axle up here in the Senate over Iraq funding all of 
that, and with the President just vetoing another appropriation 
bill, Labor, Health and Human Services, is you're likely to get 
a packaging together of a whole bunch of appropriations bills 
that the President is insisting go back to his level of $22 
billion less than what the Senate Appropriations Committee has 
done. Now, that's $22 billion on all the agencies, other than 
Defense.
    What that final figure is, I don't know, but, of course, 
this Senator will be fighting to make sure that at least what 
we have in the underlying bill of appropriation to NASA, which 
exceeds the President's request by a couple of hundred-million 
dollars, that that, at least, stays. But, of course, what we 
needed was that additional billion dollars to replace the $3 
billion that you had to spend on the recovery from the 
destruction of the Space Shuttle Columbia. Money that, by the 
way, 20 years earlier, was replaced after the destruction of 
the Space Shuttle Challenger. So, therein is where we have the 
crux.
    I would be remiss if I did not put one more thing on the 
record that we haven't talked about, but this is about the 
future: China going to the Moon. You made the statements in 
China that you think that they could get to the Moon before us, 
and I think you were truthful, and I happen to agree with you. 
We're set, under the President's plan, of getting there no 
earlier than 2020. Some people have talked that the Chinese 
will have the capability of getting there sooner. You 
apparently believe that. And so, if you would just offer that 
for the record, I would appreciate it.
    Dr. Griffin. I will provide you an expanded answer for the 
written record, of course, because the discussion gets to be a 
little complex to do verbally.
    [The information previously referred to follows:]

                                                         March 2008
   Assessment of Chinese Capabilities to Mount a Human Lunar Mission
    Chinese space officials have openly discussed plans to conduct 
spacewalking demonstrations next year, orbital rendezvous and docking 
operations by 2010, and a robotic lunar landing mission by 2012. Based 
upon a careful review of open source information concerning the 
capabilities of the Shenzhou crew vehicle and the planned Long March 5 
rocket, it is my considered judgment that, although China's public 
plans do not include a human lunar landing, China will have the 
technical wherewithal to conduct a manned mission to the surface of the 
moon before the United States plans to return.
    While initial Chinese mission(s) to the moon would not have the 
long-term sustainability of our own plans for lunar return, I believe 
China could be on the moon before the United States can return.
    China is prosecuting a fully indigenous program of human 
spaceflight development. They have adapted the design of the Russian 
Soyuz vehicle to create their own Shenzhou, which is more spacious, 
more capable, and better suited for long duration space missions than 
its Russian antecedent. China plans to conduct its first spacewalks and 
orbital rendezvous operations in 2008 and 2010, and to build a small 
space station in the next few years. All of this has been openly 
announced. Their accomplishments so far give me no cause to doubt their 
ability to carry out these plans.
    With the first manned Shenzhou flight in October 2003 China 
surpassed by itself the accomplishments of all six U.S. Mercury 
missions in the early 1960s. The second Shenzhou flight in 2005 
demonstrated most of the accomplishments of the first three U.S. Gemini 
missions in 1965. They will soon demonstrate the rendezvous and docking 
capabilities pioneered by the U.S. in the Gemini program in 1966, by 
docking a Shenzhou spacecraft with another Shenzhou, or with an orbital 
module left by a prior mission.
    These examples illustrate a fundamental difference between the 
development of the Chinese human spaceflight program, and that of the 
U.S. and Russia. Because China can follow established technical paths, 
they do not have to verify the basic feasibility of their approach. 
They need only to demonstrate that their systems work as designed to 
accomplish tasks which are by now well understood. Thus, each step in 
space can take them to a new capability plateau, eclipsing the 
equivalent of several pioneering but tentative steps in an earlier era. 
The United States required twenty-one human spaceflights to reach the 
moon in the 1960s. China should not need so many.
    The second major initiative for which the Chinese have demonstrated 
significant progress is the development of the Long March 5 launch 
vehicle. They have conducted several rocket engine tests over the past 
2 years, and plan to conduct demonstration flights in 2008-11. The 
Chinese have advertised its capability as 25 metric tons (mT) to low 
Earth orbit (LEO), rivaling or surpassing the largest expendable launch 
vehicles available today, which have a capacity of approximately 20 mT, 
or slightly greater. I believe that China's concerted, methodical 
approach to the Long March 5 development, along with recent 
construction of a new launch facility on Hainan Island, puts them on 
track to bring the Long March 5 online by 2013-14, their stated 
intention. NASA's Ares I rocket, which will have similar capabilities, 
will not be fully functional until March 2015, according to current 
plans.
    Third, China has developed and demonstrated a dual launch 
processing capability. This capability, together with the 25 mT-to-LEO 
capacity of the Long March 5, allows China to reach the ``tipping 
point'' critical to executing a manned mission to the Earth's moon. As 
one possible approach, this can be done by means of two dual-launch 
sequences.
    The first Long March 5 would place, in Earth orbit, a lunar lander 
similar in size and mass to the Apollo Lunar Module, about 14 mT, 
together with a lunar orbit injection (LOI) stage weighing 6 mT. With a 
second Long March 5 launch, the lander and LOI stage would be joined in 
Earth orbit by a 25 mT Trans-Lunar Injection (TLI) stage. The two 
payloads would rendezvous and dock automatically, as the Russian Soyuz 
and Progress vehicles do at the International Space Station today. 
After docking, the TLI stage would send the combined payload to the 
moon. Injection into lunar orbit would be accomplished by the LOI 
stage, leaving the lander poised to wait for a few weeks--or even 
months if necessary--for the second launch sequence.
    The second pair of Long March 5 launches would place in Earth orbit 
a crewed Shenzhou vehicle and LOI stage with one launch, and a TLI 
stage with the other. As in the earlier sequence, the Shenzhou would 
rendezvous and dock with the TLI stage, which would send the combined 
stack to the moon. The LOI stage would decelerate the Shenzhou into 
lunar orbit, where it would then dock with the waiting lander. The 
Shenzhou would differ from today's Earth-orbital version in two 
respects. It would require larger propellant tanks to allow it to 
depart lunar orbit for the return to Earth, and it might require a 
thicker heat shield to withstand atmospheric entry upon return from the 
moon. Neither of these modifications presents a significant challenge. 
The lunar version of Shenzhou would weigh about 11 mT, considerably 
less than the 14 mT lunar lander, so the delivery of a lunar-capable 
Shenzhou to lunar orbit presents no difficulty.
    After rendezvous, the Shenzhou crew would transfer to the lander, 
land on the moon's surface, remain for several days, depart, rendezvous 
again with the Shenzhou, and return to Earth. (Parameters and 
assumptions for this scenario are summarized in the attached Technical 
Notes.)
    What is fundamentally different about the dual-launch capability 
that the Chinese have demonstrated, and could well develop for the Long 
March 5, is that it enables human lunar missions without requiring a 
120 mT class vehicle like the Apollo-era Saturn V, or our planned 
Shuttle-derived Ares V. This technique is not particularly cost-
effective and is not easily scaled to a sustainable operation, but it 
does offer a path to ``boots on the moon'' without the development of a 
heavy-lift launch vehicle.
    Apart from the lunar lander itself, this approach requires for its 
implementation only modest developments beyond the existing Shenzhou 
and the Long March 5 vehicles. The new elements for a lunar mission are 
the TLI and LOI stages, which would be essentially the same aside from 
the size of the propellant tanks employed, and which would utilize the 
upper-stage engines from the Long March 5, with modest improvements. 
This is a minor developmental excursion from Long March 5 technology.
    China has not announced any intention to develop a human lunar 
lander. However, I note that China recently launched its first robotic 
lunar orbiter mission, and has announced plans for a robotic lander by 
2012 and a robotic sample return mission in the 2017-2020 timeframe. 
The developments in communications, tracking, guidance, navigation, and 
control required to execute robotic lunar orbital and lander missions 
are identical to those for a manned system, irrespective of whether or 
not the lander itself is scaleable to human missions. Inasmuch as the 
design parameters of the Apollo lunar lander are widely known and well 
within today's state-of-the-art, the development of a similar vehicle 
by the Chinese should not present a significant problem.
    Pending development of a Chinese manned lunar lander, a fly-by or 
orbital mission around the moon could easily be executed with the 
Shenzhou spacecraft and a single pair of Long March 5 launches, as 
outlined above. Indeed, as a matter of prudent engineering development, 
I would fully expect China to execute such a mission prior to a lunar 
landing. This would be completely analogous to the inspirational Apollo 
8 mission during the Christmas season of 1968.

                             Technical Notes



Mission Parameters
Translunar Injection V (km/s)       3.1
Lunar Orbit Injection V (km/        1.0
 s)

Trans-Lunar Injection
TLI Stage Gross Mass (mT)          25.0     Long March 5 payload to LEO
TLI Stage Mass Fraction             0.9     U.S. Centaur upper stage >
                                             0.9
TLI Stage Empty Mass (mT)           2.5
TLI Propellant Mass (mT)           22.5
Specific Impulse (Isp,              450     Modest improvement of YF-75
 seconds)
Net Payload to TLI (mT)              20

Lunar Orbit Injection
Lunar Lander Mass (mT)               14     Apollo Lunar Module Mass
LOI Stage Gross Mass (mT)           6.0
LOI Stage Mass Fraction            0.83     Conservative assumption
LOI Stage Empty Mass (mT)           1.0
LOI Stage Propellant Mass           5.0
 (mT)
LOI Injection Stage Isp             450     Same as TLI Stage
 (seconds)

Lunar Shenzhou
Earth Orbital Shenzhou Mass         8.0
 (mT)
Lunar Departure V (km/s)            1.0
Lunar Departure Propellant          2.7     Hypergolic propellants, 310s
 Mass (mT)                                   Isp
Additional Propellant Tank          0.3     10% of propellant mass
 Mass (mT)
    Total Lunar Shenzhou Mass      11.0     Less than 14 mT lunar lander
     (mT)


                                            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                            

    Dr. Griffin. But, yes, I have stated--actually, I stated 
this in response to questions and answers following a speech I 
gave--that the best technical opinion I can give you is that 
China will be able to put people on the Moon before we will be 
able to get back. With the completion of their Long March 5 
development that they forecast for the 2012-2013 time-frame, 
and with the continued development of capability that they've 
already shown for dual-launch processing, they put themselves--
they will put themselves--and, of course, they already have the 
Shenzhou spacecraft--they will put themselves in a position 
where the only item remaining for their accomplishment would be 
the construction of an Apollo-class lunar lander, and they 
would be able to do the job. I find their approach to the 
development of their space capabilities to be interesting and 
admirable. I admire what they have done. But I am concerned 
that it will leave the United States in its wake. And I have 
expressed that point. I do believe it to be technically--I 
believe it to be very solidly grounded, technically. I am sorry 
that, once again, it falls into the category of stuff that 
Senator Hutchison would label as not encouraging. But it is 
what it is.
    I will give you a more complete answer for the record, sir.
    Senator Nelson. Thank you. And since this hearing is about 
the future, I think it's appropriate to sound the claxon call 
of alarm that, on the basis of the agenda and schedule that 
we're going, is that China may well reach the Moon before we 
return. What does that imply? That could imply all kinds of 
things, including the defense of this country, particularly 
since they've already shown us that they can claim the high 
ground with an ASAT, an anti-satellite weapon that has taken 
out one of their satellites. And with them holding the high 
ground of the Moon before we would get back there, is that a 
position that the United States of America wants to be in late 
in the next decade?
    And I do not think so. I don't think that's what the 
American people want. But it's what is a trend, unless we 
change things.
    So, thank you all, gentlemen, for being here today. Thank 
you for sharing this for the record. Have a good day.
    And the meeting is adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]
                            A P P E N D I X

             National Aeronautics and Space Administration

             Workforce Transition Strategy Initial Report 
      Space Shuttle and Constellation Workforce Focus--March 2008

Table of Contents
1.0  Introduction
2.0  Background
3.0  Workforce Initiatives
4.0  Distribution of Workload and Tasks to Centers
5.0  Workforce Projection
6.0  The Road Ahead
Appendix A: Constellation Work Assignments to NASA Centers
Appendix B: NASA Non-Sensitive Integrated Acquisition Roadmap
Appendix C: Multi-Program Integrated Milestones
1.0  Introduction
    This report responds to direction in the Consolidated 
Appropriations Act of 2008 (P.L. 110-161):

        ``The Administrator of the National Aeronautics and Space 
        Administration shall prepare a strategy for minimizing job 
        losses when the National Aeronautics and Space Administration 
        transitions from the Space Shuttle to a successor human-rated 
        space transport vehicle. This strategy shall include: (1) 
        specific initiatives that the National Aeronautics and Space 
        Administration has undertaken, or plans to undertake, to 
        maximize the utilization of existing civil servant and 
        contractor workforces at each of the affected Centers; (2) 
        efforts to equitably distribute tasks and workload between the 
        Centers to mitigate the brunt of job losses being borne by only 
        certain Centers; (3) new workload, tasks, initiatives, and 
        missions being secured for the affected Centers; and (4) 
        overall projections of future civil servant and contractor 
        workforce levels at the affected Centers. The Administrator 
        shall transmit this strategy to Congress not later than 90 days 
        after the date of enactment of this Act. The Administrator 
        shall update and transmit to Congress this strategy not less 
        than every 6 months thereafter until the successor human-rated 
        space transport vehicle is fully operational.''

    The transition from Space Shuttle to Constellation over the next 
few years provides a rare opportunity to reinvigorate the Nation's 
space exploration capabilities. During that time, NASA's greatest 
challenge and top priority will be to safely fly out the Space Shuttle 
manifest, complete assembly of the International Space Station (ISS), 
and honor commitments to our international partners prior to retiring 
the Shuttle in 2010, all while developing the new Constellation space 
systems and preparing them for flight as soon as possible after the 
Shuttle's last mission.
    Through this period, NASA's greatest asset will continue to be its 
people--the thousands of individuals across the country in both 
government and industry who conceive, design, build, operate, and 
manage an ambitious program of space exploration on behalf of the 
Nation. At the same time, our greatest challenge over the next several 
years will be managing this extremely talented, experienced, and 
geographically dispersed workforce as we transition from operating the 
Space Shuttle to utilizing the International Space Station and 
expanding our reach to the Moon, Mars, and beyond. This report 
describes NASA's strategy for meeting this challenge, integrated across 
programs, Centers, and our industry partners. Because this is a dynamic 
process, future versions of this report will provide updates to both 
this strategy and the underlying data which drives NASA's strategic and 
tactical plans.
    NASA's most critical resource, and the one which will be most 
crucial to the success of this initiative, is the highly skilled 
workforce that will turn the Nation's space exploration policy into a 
reality. Today, a large portion of the Agency's skilled civil servant 
and contractor workforce is focused on the safety of ongoing mission 
operations. Much of the experience and expertise within this workforce 
is required for the Constellation program to succeed. However, the 
effects of the transition will not be the same for everyone. While 
approximately 80 percent or more of NASA's budget will continue to pay 
for the purchase of contractor products, goods, and services, the 
nature of the work being done will change. NASA's human spaceflight 
workforce will shift from being focused primarily on operating 
spacecraft to a recurring cycle of spacecraft development and 
operations. NASA recognizes and values the dedication of its Space 
Shuttle workforce and will leverage this resource, where feasible, by 
engaging those men and women in challenging future work that 
capitalizes on their unique skills and abilities to the maximum extent 
practical.
    All data in this report are NASA's best estimates as of March 2008. 
The maturity of the data will improve over time and will be updated in 
future versions of this strategy.
2.0  Background
    NASA is managing human spaceflight workforce issues within the 
broader context of the U.S. Space Exploration Policy and the Agency's 
overall transition efforts. The NASA Human Space Flight Transition Plan 
(TCB-001) describes the processes by which the Agency manages and 
integrates all of the strategic and tactical aspects of transition, 
including workforce. To augment these transition processes and ensure 
close cooperation and partnering between NASA and industry, a Human 
Capital Council, comprised of human resources directors from the prime 
contractors and Centers, has been formed and meets quarterly. 
Supporting the efforts of the Human Capital Council, NASA and its prime 
contractors conduct frequent formal and informal Technical Interchange 
Meetings including a broad range of participants.
    In addition to these standing Agency transition processes, NASA 
also tightly integrates transition workforce planning into its 
acquisition and budget development activities. NASA uses a strategic 
acquisition approach for make/buy decision and contracting. For 
example, a senior-level leadership forum reviews and approves Center 
acquisition strategies. Criteria during these reviews include any 
impacts of decisions on the health of the workforce at NASA's Centers, 
and any new programs, major program shifts, or major new institutional 
initiatives are coordinated through this process. Acquisition strategy 
planning decision meetings will occur semi-annually, synchronized to 
the President's budget development, as well as when any significant new 
mission element or program is proposed.
    The annual Planning, Programming, Budgeting, and Execution (PPBE) 
process involves planning, analysis, recommending requirements, and 
developing decision packages as part of the Agency's development of the 
President's budget request. Transition workforce planning across the 
programs, the institutions, and Headquarters has shaped the last 
several budget development cycles and will continue to be a critical 
component of the budget process.
    NASA's contractor workforce is vital to success. The Agency and its 
Space Shuttle prime contractors have developed and implemented a range 
of personnel management tools to help safely manage operations through 
retirement. It is important to note that while NASA directly plans and 
controls its civil servant workforce, the Agency does not determine the 
personnel levels of the contractor workforce. Instead, NASA purchases 
the products and services they provide as part of the national human 
spaceflight workforce and aerospace industrial and supplier base. NASA 
expects that many of its contractors will apply their human spaceflight 
workforce to the design, development, test, and integration of new 
human spaceflight and support systems. At the same time, containing 
workforce costs for exploration is key because NASA's new systems must 
cost less to produce, process, launch, and operate or the Agency will 
not have the resources to return to the Moon.
NASA Organization and Current Workforce Distributions
    The Space Operations Mission Directorate (SOMD) oversees NASA's 
operational space capabilities, including the Space Shuttle, 
International Space Station, Launch Services, Space Communications and 
Navigation, and Rocket Propulsion and Test programs. The 2008 Space 
Shuttle workforce includes approximately 15,000 contractors and 1,700 
civil servants in locations across the country (Figure 1).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Exploration Systems Mission Directorate (ESMD) oversees the 
Constellation, Human Research, Exploration Technology Development, and 
Lunar Precursor Robotic Programs, as well as the Commercial Orbital 
Transportation Services (COTS) project through the Commercial Crew and 
Cargo Program Office. Constellation Program work takes place across 
NASA's ten Centers and at prime contractor and subcontractor locations 
throughout the country. The Constellation Program project elements 
include the Orion Crew Exploration Vehicle (CEV), the Ares I crew 
launch vehicle, and extravehicular activity systems. NASA's first new 
Constellation human spaceflight capabilities will be Orion and Ares I, 
which will be followed by the development of the Ares V heavy-lift 
launch vehicle, the Altair lunar surface access module, and other 
systems necessary to support the exploration of the Moon, Mars, and 
beyond. Figures 2 and 3 highlight the Constellation Program Center work 
distribution.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    To manage an efficient and cost-effective transition of workforce, 
facilities, and contractor support from the Space Shuttle Program to 
the new Constellation Program, the NASA leadership team must ensure 
that our workforce skills are rebalanced to meet the evolved focus of 
the Agency, and effectively communicate our actions and goals to all of 
our stakeholders, most importantly our employees.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While there will be a gap between flights of Shuttle and Ares I/
Orion, a great deal of development activity is planned during this 
time, including Orion abort testing at White Sands Test Facility 
(WSTF), the Ares I-Y flight test at Kennedy Space Center (KSC), J-2X 
engine integrated development and testing at Marshall Space Flight 
Center (MSFC) and Stennis Space Center (SSC), and new testing and 
operations facility construction at SSC and KSC. NASA may schedule 
additional flight tests as requirements and program plans continue to 
mature. These and many other development and construction activities 
across all NASA Centers will provide the workforce with many 
opportunities to remain engaged with meaningful work between flights of 
Shuttle and Orion. Transition also provides an opportunity for NASA to 
forge a new line of business--to re-invent, re-invigorate, and re-
vitalize the Nation's spirit and capacity for human space exploration.
    Overall, NASA will spend the same amount on skilled labor as it has 
during the Space Shuttle era, but with a growing emphasis in the near 
term on the design of new vehicles to explore beyond Earth orbit. 
Further, NASA is committed to ensuring that all ten Centers remain 
fully capable of leveraging their unique resources and rich heritage by 
supporting Exploration work as well as NASA's scientific and research 
missions.
    NASA's new systems must cost less to produce, process, launch, and 
operate or the Agency will not have the resources to further develop 
the vehicles and systems needed to return to the Moon. As NASA 
transitions, some of the workforce will move from Space Shuttle and ISS 
operational work to new vehicle design, development, test and 
evaluation (DDT&E) work. Regional workforce impacts of shifting from 
``vehicle processing'' and ``operations'' to DDT&E activities are 
becoming clearer and will be outlined in subsequent sections of this 
report. Reducing the impacts to specific regions will require the 
assignment of specific Constellation development, test and 
manufacturing work to affected NASA Centers as the Space Shuttle is 
retired. Since upcoming Constellation contracts are competitively 
awarded, NASA cannot provide exact contractor workforce numbers or the 
location of the work performed beyond already awarded current work 
assignments. However, where possible, this report will provide forecast 
estimates for these assignments while still preserving the integrity of 
future acquisition activities.
    As future procurements are conducted, contractors selected, and 
contracts awarded, a more comprehensive public assessment will become 
available during 2008 and 2009. For example, this past year, NASA 
announced the winning contractors for the Ares I Upper Stage and Ares I 
Instrument Unit, but the contracts for the Ares V Core Stage, Earth 
Departure Stage, and for Altair have not yet been completed. Selection 
of contractors for these efforts will greatly influence contractor 
employment in the locations in which the work is performed. For those 
contracts that were awarded recently, NASA is still working with 
industry to refine contract related information, such as workforce 
levels. Further, the systems remain under development and the workforce 
requirements for the ground operations and launch processing for Orion/
Ares at KSC are still being determined, with the program attempting to 
minimize the cost of operations of the new systems. As both 
requirements and plans solidify during the current and future budget 
cycles, NASA will have more precise information on the workforce 
impacts in particular areas.
NASA Transition Workforce Strategy
    NASA's strategic approach to ensuring that critical skills are 
retained is fundamentally simple: provide a clear career path to 
challenging and exciting follow-on work in Constellation and on other 
programs, maintain NASA's quality workplace by providing a 
collaborative and creative environment, and support career development 
and learning opportunities. NASA is committed to transitioning the key 
Space Shuttle civil servant workforce to other Agency programs as is 
necessary using tools such as workforce synergy, matrixing, detailing, 
and retraining. In addition, Centers identify opportunities for the 
placement of employees with needed skills in other organizations.
    Three key documents form the foundation for the NASA transition 
workforce strategy:

  <bullet> NASA Workforce Strategy, 2006.
    http://nasapeople.nasa.gov/HCM/WorkforceStrategy.pdf.

  <bullet> NASA Human Capital Plan for Mission Execution, Transition, 
        and Retirement of the Space Shuttle Program, 2006.
    www.nasa.gov/pdf/218792main_SSP_human_capital_plan.pdf.

  <bullet> NASA Human Space Flight Transition Plan (currently being 
        updated as the NASA Transition Plan, 2008).
    http://spaceoperations.nasa.gov/tran_plan.pdf),

    NASA has created seven goals focused on the human spaceflight 
workforce:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    From these goals, NASA has created three specific workforce 
objectives:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    NASA is committed to working with the aerospace contractor 
community on workforce issues. The Agency's industry partners have a 
range of transition, retention, and staffing tools available to 
maintain critical skills to meet their contractual obligations required 
for safe Space Shuttle mission execution. Specific impacts will be 
unique to each contractor, depending in part on its role in future 
Constellation work and its skill set. NASA is also committed to the 
equitable distribution of tasks and workload among the Centers, 
leveraging the core technical capabilities of NASA's workforce and 
infrastructure, and limiting the impact of workforce changes to local 
communities of workforce changes. In the end, though, Constellation 
program requirements will drive Constellation's workforce size and 
skills needs.
    NASA has provided the Space Shuttle prime contractors with a number 
of opportunities to help safely manage the Shuttle operations through 
FY 2010 and to prepare the contractor workforce for Shuttle retirement. 
This includes opportunities for employees to do work on several 
different NASA programs, acquire skills retraining, and in selected 
cases, receive retention bonuses. NASA remains committed to working 
with its industry, supplier, and research partners to craft and 
implement strategies to minimize disruption, upheaval, and economic 
impact, while maximizing support vital for Shuttle missions and program 
requirements.
    NASA buys products and services from industry, and does not 
determine contractor workforce levels. However, the Agency has made a 
substantial investment in training an industrial human spaceflight 
workforce with unique skills. NASA believes that the highly skilled, 
experienced, and dedicated human spaceflight workforce of the Space 
Shuttle and International Space Station programs will be employed by 
successful bidders for future Constellation development work, but the 
geographic distribution and quantity of each type of work continues to 
be determined as NASA competes and selects contractors to design and 
develop Constellation. As Constellation contractors further define 
their vehicles through successful design reviews, suppliers and vendors 
will be selected and the implications for the contractor workforce will 
become clearer.
    While NASA maintains internal Government estimates for likely 
future contractor costs and workforce at NASA Centers for future 
contracts, these estimates are procurement sensitive and not released 
to the public. In some cases, NASA is still formulating the acquisition 
strategy and developing detailed procurement plans, including the 
division of work between civil servants and contractors and the Center 
at which the work will be conducted. Ultimately, Constellation program 
requirements will drive the workforce size and skills needs in the 
acquisition process. See Appendix C, ``NASA Non-Sensitive Integrated 
Acquisition Roadmap'', for more details.
3.0  Workforce Initiatives
    NASA has undertaken a number of specific initiatives aimed at 
meeting its workforce goals. The total civil servant workforce level is 
expected to remain relatively constant through the transition from 
Space Shuttle to Constellation. NASA contractors are primarily 
responsible for implementing any initiatives needed to keep a skilled 
and robust contractor workforce in place and ready to perform its 
critical function of delivering products and services. NASA has been 
strongly engaged with its contractor partners in these activities at 
both the strategic and tactical levels.
    Important milestones for NASA workforce planning include the design 
milestones for Constellation Program, the development contract start 
dates for Constellation, and the retirement of the Shuttle by the end 
of FY 2010. Constellation Design Reviews and the Space Shuttle manifest 
are shown on the NASA Multi-Program Integrated Milestones (MPIM) chart 
(Appendix D), and Constellation Procurement milestones are shown on the 
NASA Non-Sensitive Integrated Acquisition Roadmap (Appendix C). By 
completing the Constellation design reviews, NASA and its prime 
contractors determine in detail what work needs to be performed to 
develop Constellation vehicles, and by awarding the prime contracts for 
IOC, NASA determines who in industry is going to perform the work, 
where it will be performed, and what quantity of which skills are 
needed to deliver the products and services.
    As NASA reaches the end of the Space Shuttle Program, specific 
Space Shuttle contract actions will be used to retain workers needed 
for Space Shuttle even as new Constellation work is competed with 
industry. NASA is assisting in the development and implementation of 
contract workforce retention plans for each Space Shuttle prime 
contractor, with a focus on communication and future work. In some 
cases, prime contractors are implementing monetary retention 
incentives. As appropriate, the contractor community is using a range 
of tools, such as cross-training, to demonstrate a future path for 
employees, as well as embedding personnel with operational experience 
in the design phases of Constellation's vehicles.
    Additional initiatives will continue to be worked as part of the 
current budget development process, and NASA will provide updates to 
the status of these items in future updates to this report.
Space Shuttle Workforce Surveys
    Background: The safety and success of the Space Shuttle Program 
depends on a skilled, focused, and motivated workforce. As the 
retirement of the Space Shuttle approaches, there is a large and 
growing need to ensure that there are enough skilled team members to 
support safe operations through the conclusion of the Space Shuttle 
Program. Annual surveys of the Space Shuttle civil servant and 
contractor workforce help NASA leadership monitor trends and refine 
communications and incentive activities aimed at retaining these 
critical workforce capabilities.
    Status: The confidential 2007 Shuttle Employee Survey involved over 
2,800 civil servant employees at KSC, JSC, MSFC, and SSC. The survey 
included employees who charged time to the Space Shuttle Program from 
October 2006 to May 2007. The survey was web-based and conducted 
between June 25 and July 13, 2007. Response rates from the four Centers 
were quite good, ranging from about 34 to 44 percent.
    General observations from 2007's survey include:

  <bullet> There continues to be a great deal of goodwill toward the 
        Space Shuttle Program.

  <bullet> Sixty-five percent of employees indicated that they will 
        stay until the end of the program.

  <bullet> Employees are nervous about the future, both their own and 
        the Agency's. They are concerned about having meaningful work 
        now and in the future, and about job security.

  <bullet> Employees are concerned about the funding stability of the 
        Constellation program.

    These observations indicate a continuing need to improve 
communication at the Agency, Center, and program level. At the Agency 
level, NASA needs to continue to share the U.S. Space Exploration 
Policy, plans, and vision. At the Center level, the human spaceflight 
Centers must address workforce issues and concerns. At the program 
level, the three human spaceflight programs have to provide employees 
the status of Space Shuttle transition and retirement activities, plus 
information on new contracts and program progress.
Workforce Synergy, Matrixing, Detailing, and Cross-Training
    Background: NASA uses the matrix form of management (or 
organizational structure) to support its multiple programs. In this 
approach, the functional skills (such as engineering, operations, etc.) 
are ``sourced'' within a Center and the program(s) tap into the 
expertise as needed. For example, the structural engineering function 
resides within the engineering organization allowing the managers and 
structural engineers to support not only the Shuttle Program, but 
potentially the Station and Constellation Programs as well. Not only 
does this allow for cross-training and broader skill development, but 
helps supervisors manage peaks and valleys in workload.
    To build crossover skills for employees, NASA has made a concerted 
effort to share civil servant and contractor workforce across the 
programs (especially between Space Shuttle, ISS, and Constellation). 
This workforce synergy enables the Constellation Program to make steady 
progress toward its development and operational goals while ensuring 
the continuing availability of the critical skills necessary to safely 
and efficiently execute the remaining Space Shuttle missions. In 
addition, this synergy encourages transferring lessons learned, 
accounting for operations needs in spacecraft systems design, and 
showing employees the future of human spaceflight with the 
Constellation Program. NASA is providing the tools, training, and time 
for civil servant and contractor workers to gain experience and skills 
on new processes that NASA will implement for Orion and Ares. This 
hands-on experience will increase employee familiarity with the new 
techniques and qualify them for future work.
    In addition, Centers are partnering with the programs to look for 
opportunities for retraining. For example, KSC identified several 
likely positions for Fuel Cell Engineers currently supporting the 
Shuttle Program to transition to Constellation in support of Cryogenic 
Systems or Environment and Crew Life Support Systems (ECLSS). 
Currently, the KSC training and development office is in the process of 
creating training plans that will identify the precise pathway for 
these individuals to transition to the new roles.
    Status: NASA is tracking and comparing civil servant time spent on 
Space Shuttle, ISS, and Constellation. Based on the 2007 Shuttle 
Workforce Survey (the second year the survey has been taken), over 57 
percent of those responding provide regular support to programs and 
projects outside of the Space Shuttle Program. The following data is 
for civil servant employees at each of the four main human spaceflight 
Centers that supported more than one program in 2007. The trends are 
showing increasing use of this effective practice, even with the 
unforeseen impacts of the additional work required to repair the Space 
Shuttle external tank damaged during the hail storm in 2007 and the 
engine cut-off (ECO) sensor challenges during STS-122. The following 
shows the percentage of civil servant employees at each of the four 
main human spaceflight centers that supported more than one program 
(Space Shuttle, ISS, and Constellation) in December 2007:

  <bullet> Kennedy Space Center      56 percent
   (KSC)
  <bullet> Johnson Space Center      61 percent
   (JSC)
  <bullet> Marshall Space            56 percent
   Flight Center (MSFC)
  <bullet> Stennis Space Center      83 percent
   (SSC)
 

    Figure 5 shows the number of civil servants working full-time for 
Space Shuttle, ISS, Constellation, Center Management and Operations 
(CM&O), ``Other'', as well as the number of employees who split their 
time between multiple programs. The data is current as of January 2008.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Based on workforce synergy metrics, from October through June of 
2007, the number of civil servants charging to both the Space Shuttle 
and Constellation programs increased by 33 percent, while the number 
charging to both the ISS and Constellation increased by 23 percent. In 
addition, Shuttle contractor workforce has been used for Constellation 
Program tasks. Examples of synergy across the programs include the 
following:

  <bullet> On STS-118, Shuttle Orbiter Endeavor was powered up before 
        its mission using a new ``paperless'' process as a test of 
        future procedures for the Orion spacecraft.

  <bullet> For STS-120, a single Solid Rocket Booster was stacked one 
        segment at a time to gather engineering information for the 
        Ares I-X launcher, which will also use segmented solid rockets 
        stacked singly. The Space Shuttle Program has also begun 
        demonstrating new paperless, electronic procedures for 
        processing solid rocket motors in the Rotation, Processing, and 
        Surge Facility (RPSF) and the Vehicle Assembly Building (VAB).

  <bullet> The United Space Alliance (USA) Space Programs Operation 
        Contract (SPOC) workforce is being used by Constellation to 
        process the Ares I-X vehicle for the first Constellation test 
        flight (scheduled for April 2009). The first Constellation 
        flight of Ares will be conducted by many contractor personnel 
        from the Space Shuttle workforce.

  <bullet> Pratt & Whitney-Rocketdyne's Space Shuttle Main Engine 
        employees across all sites spend approximately 20 percent of 
        their time on other programs. Some examples of areas where this 
        is occurring are combustion devices engineering, manufacturing 
        engineering, electrical engineering, software engineering and 
        business operations in support of J-2X development for Ares I 
        and Ares V.

  <bullet> Constellation's Orion project is defining a Relative 
        Navigation Sensors Development Test demonstration, which would 
        be conducted on a Space Shuttle flight in 2009 or 2010. This 
        test would demonstrate operation of Orion navigation sensors on 
        the Shuttle as it navigates near the ISS, similar to Orion's 
        initial missions planned to the Station.

  <bullet> To help retire the risk of Ares I first stage thrust 
        oscillations, a Space Shuttle reusable solid rocket booster 
        will be instrumented to simultaneously measure pressure, sound 
        pressure level and acceleration in 2009 and 2010.

    NASA has also assigned specific work tasks to Space Shuttle 
Government and contractor organizations to prepare their staffs for 
future positions, while providing work needed today for Constellation. 
Expanded industry workforce skills can be developed in a variety of 
ways under Space Shuttle contracts. In some cases, Constellation tasks 
are added to Shuttle contracts and Shuttle workers are able to broaden 
their skills applicability to Constellation work by performing actual 
contract tasks.
Workforce Skills Mapping
    Background: The purpose of the Space-Shuttle-to-Constellation 
Workforce and Skills Mapping activity is to provide the requisite 
baseline data necessary to facilitate Agency management of personnel 
and skill needs across the portfolio, develop appropriate transition 
strategies, uncover potential problems, and test assumptions about 
mitigation actions.
    Status: Phase I of the mapping activity, completed in the fall of 
2007, focused on the civil servant work force. In this phase, the four 
traditional human spaceflight centers (JSC, KSC, MSFC, and SSC) 
compared Constellation's project needs with Shuttle workforce becoming 
available after the Shuttle Program ends, and assessed how well this 
demand and supply matched at a skills level. The Phase I assessment was 
designed to help the Agency uncover issues related to migration of 
workforce from Shuttle to Constellation after 2010, so that Centers and 
programs could add or refine human capital strategies for the placement 
and training of civil servant workforce in time for the major 
transition years of 2010 and 2011.
    Although Constellation workforce demand projections at each Center 
used in Phase I were considered preliminary (particularly the 
projections for Fiscal Years 2013 through 2015), the study nonetheless 
resulted in the identification of a few skill mix issues at each Center 
that would likely remain even as Constellation demand is further 
refined. Furthermore, Phase I yielded more detailed information about 
how the Centers were planning to migrate specific skills to the 
Constellation program post-2010, and identified a set of issues for 
each Center that required specific near-term actions or special 
attention during the Fiscal Year 2010 budget planning cycle.
    Phase II, currently underway and nearly complete, focuses on 
contractor data for on, near, and off-site contractor personnel, and 
expands the scope to all ten NASA Centers from the previous four human 
spaceflight operations centers. The purpose of this phase is to bring 
more quantitative rigor and detail to contractor workforce supply and 
demand projections. Phase III, scheduled for the third and fourth 
quarter of Fiscal Year 2008, will refresh the Phase I civil servant 
data with new information available from the Fiscal Year 2010 planning 
cycle, assess the validity of initial findings, and check progress of 
mitigation actions undertaken as a result of Phase I. The Agency will 
continue to refresh both civil servant and contractor data as part of 
the budget planning cycle each year between now and 2011.
Communications
    Background: NASA's workforce surveys have indicated that 
communication is the key to managing the workforce during transition. 
NASA and its prime contractors are engaged in a robust communications 
effort at all levels to ensure that the workforce is kept informed of 
current programs and future plans. The Agency is utilizing many tools 
and media options to make this possible, and the effectiveness of these 
tools is continually evaluated in both surveys and by monitoring 
various media metrics.
    Status: The recent establishment of the external Space Shuttle 
transition website at www.nasa.gov/transition is an important step 
toward providing ready and open access to key NASA transition 
information. Additionally, a host of internal secure websites, 
newsletters, supervisor talking points, and monthly news articles add 
new elements to the NASA toolkit for communicating with the work force. 
Notable among the tools in use are Rendezvous magazine and other 
periodical publications.
    In addition, a number of other communications methods and products 
are used, such as manager talking points, program websites, feedback 
groups, all-hands meetings, Transition ``road shows,'' and quarterly 
program updates. Public briefings at symposia, conferences, and 
industry events are also frequently conducted to ensure the widest 
audience possible.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

4.0  Distribution of Workload and Tasks to Centers
    Background: New work assignments from ESMD have been distributed 
across the various Centers to not only leverage resident capabilities 
and expertise, but also mitigate some of the effects of Space Shuttle 
retirement. Analysis of current and projected workforce needs resulted 
in the following considerations being viewed as primary drivers behind 
workforce and workload allocation:

  <bullet> geographical location of the work and workforce 
        demographics;

  <bullet> acquisition approach;

  <bullet> degree of heritage system or support infrastructure 
        composition in new vehicle architecture;

  <bullet> unique skill set requirements or resources available;

  <bullet> dynamics in work assignments and future assignment 
        allocations;

  <bullet> Operations/Development/Sustaining Engineering definitions, 
        budgeting and mission splits, and transition funding;

  <bullet> contractor-unique workforce issues; and

  <bullet> NASA's repeated cycling from predominantly operations to 
        development work as new systems are developed and fielded.

    A sound baseline of data from which to build is fundamental to the 
success of NASA's evolving workforce strategy, and the results of the 
current workforce initiatives are central to any equitable evaluation 
of re-distribution, tailoring, or modifications to existing or 
projected Agency workload. However, each NASA Center has specific and 
unique capabilities and resources to execute their core competency 
mission areas. Awarding lunar contracts as soon as possible provides 
evidence of emerging opportunities, reduces workforce concern about the 
end of the Shuttle Program, and facilitates workforce strategy 
development and mitigation plans.
    Status: NASA has made Exploration lunar lead and support role and 
work assignments that leverage expertise across the NASA Centers and 
facilities. These work assignments are provided in the table in 
Appendix A.
    NASA is analyzing the costs and refining the method of retiring the 
Space Shuttle after its last mission in 2010. Space Shuttle Transition 
and Retirement work plans have been approved though the end of the 
Space Shuttle Program in 2010, but plans and costs for the remaining 
work to be conducted after 2010 are still being studied and are 
expected to be defined at the time the President's 2010 Budget Request 
is submitted in Congress in February 2009.
    The following Center breakdown highlights the trends and major 
Transition-related activities that are and will be occurring that 
impact workforce utilization and future projections.
Johnson Space Center
    JSC continues program management and mission operations for the 
International Space Station after the Space Shuttle's last mission in 
2010. Management of Orion development continues, as well as mission 
operations capability development to enable Orion's first piloted 
spaceflight. Design and development of the Altair Lunar Surface Access 
Module does not begin on a large scale until 2011 and beyond. JSC's 
projected contractor workforce level is slightly lower in FY 2011 after 
the completion of the Space Shuttle Program.
Marshall Space Flight Center
    MSFC continues management and sustaining engineering of the Space 
Shuttle's propulsion systems until completion of the last Space Shuttle 
mission in 2010. MSFC continues the design and development of the Ares 
I Crew Launch Vehicle from 2005 to 2015, while design and development 
of the Ares V Cargo Launch Vehicle will take place in 2011 and beyond. 
MSFC's projected contractor workforce level is approximately level over 
the years, due to more Ares V design work commencing right after Space 
Shuttle completes its last mission.
Kennedy Space Center
    KSC completes Space Shuttle launch and landing work in 2010. In 
2007, NASA started the construction of facilities modifications to KSC 
to prepare for the Ares I-X test flight in 2009, as well as for the 
later launch of Ares vehicles. NASA does not gather comprehensive 
workforce information for construction of facilities work, so not all 
of this work is included in Agency projections. NASA is still studying 
the tasks and contracts required for ground processing of the 
integrated Orion/Ares I vehicle, and only Government internal estimates 
are available for budget and work force. A Request for Information 
(RFI) for Constellation Ground Processing Services was released in 
February 2008, which will be followed by industry brief in the late 
summer of 2008 and a Request for Proposals in spring 2009. Contract 
selections and awards are expected in 2010. Analysis of the results 
from this RFI and follow-on activity is expected to have a significant 
impact on workforce planning at KSC and will be documented in future 
updates to this plan. KSC's contractor workforce is expected to 
decrease from FY 2010 to FY 2011. Work required at KSC to retire the 
Space Shuttle after 2010 is still being refined and is not included in 
these estimates. These estimates also do not include work still under 
negotiation between NASA Centers or prime contractors and 
subcontractors which will probably be reallocated to the launch site.
Stennis Space Center
    SSC is transitioning from support of Space Shuttle Main Engine 
propulsion testing to propulsion test development for Constellation's 
new J-2X and RS-68B engines. Significant construction of facilities 
activities, including the A-3 Test Stand, is currently underway.
Michoud Assembly Facility
    The Michoud Assembly Facility (MAF) will complete production of 
External Tanks for the Space Shuttle in 2010. Starting in 2008, MAF 
will begin preparations to start production assembly of upper stage 
tanks by Boeing for the Ares I launch vehicle. Lockheed Martin plans to 
use MAF for selected Orion Launch Abort System developments. NASA will 
select a new multi-program Facility Operations and Maintenance 
contractor in early FY 2009; NASA is still studying the scope and work 
required to conduct that function for all the NASA programs which will 
use MAF, so those estimates are not included. Production and test of 
the Ares V Core Stage and Ares V Earth Departure Stage begin ramping up 
in FY 2011; NASA is still studying the tasks and contracts for Ares V 
work, so these elements are not included in the estimates for MAF. NASA 
is considering early Ares V risk reduction and skill retention 
manufacturing tasks at MAF, but in 2008 these are only being evaluated 
for a later decision. Work required at MAF to retire the Space Shuttle 
External Tank production after 2010 is still under study and is not 
included in these estimates.
5.0  Workforce Projections
    Background: NASA's projections for Center civil servant and 
contractor workforce levels are based on data from the Space-Shuttle-
to-Constellation Workforce Mapping activity and updates to civil 
servant full-time equivalent (FTE) and contractor work-year equivalent 
(WYE) requirements from the Agency budget planning process. This is an 
evolving effort and will be updated accordingly as the data and 
information are further refined.
    Status: NASA's bottom-up estimates in 2007 and early 2008 show a 
lower number of contractor work-year equivalents in FY 2011 than in FY 
2010 because:

        1. Space Shuttle work, which ends in FY 2010, is well defined, 
        with predictable contractor workforce information provided by 
        the existing contractors based on extensive experience.

        2. As a mature, operational program, Space Shuttle budget 
        maintains a low level of annual budget reserve. The direction 
        of budget reserve to solve problems (by paying staff overtime 
        or surge skills) does not drive gross change in the workforce 
        distribution between various sites.

        3. Given that the Constellation Program's Ares I and Orion 
        projects are still in their early phases, work to be conducted 
        at the production, assembly, and launch sites is still not 
        fully defined, nor are contractor work-year equivalents fully 
        mapped to the correct work location (see KSC estimates, below).

        4. NASA is planning the work to be contracted for vehicle 
        processing and operations. Once the planning is competed and 
        providers selected, the industry workforce levels will be 
        clearer. NASA's internal assessment is that less vehicle 
        processing and operations labor will be needed to launch two 
        Orion/Ares I missions each year to the International Space 
        Station than that required to maintain the Space Shuttle for 
        flight.

        5. Current estimates are that several thousand fewer contractor 
        positions may be required at KSC for that work after FY 2010, 
        but more accurate information will not be available until 
        vehicle processing contact work planning is better defined. 
        These numerical estimates are based on work assigned to KSC 
        during the FY 2009 formulation process negotiated with 
        companies to provide these contracted products and services, 
        these numbers will be based on internal government estimates.

        6. Because the Constellation Program is still early in 
        development and has not yet gone through Preliminary Design 
        Review, budget reserves in later fiscal years (starting FY 
        2011) are not yet allocated to specific work, as the final 
        allocation will be based on what challenges occur during 
        development; these will not be identified for several years.

        7. The Constellation lunar work for Ares V and Altair--
        including early technology development for these efforts--is in 
        the early stages of planning, so the work allocation and time 
        phasing are still internal government estimates until the final 
        phasing is confirmed. This leads to less work being explicitly 
        defined in FY 2011 and beyond than that supported by the 
        budget; these data will be better defined over the next year.

        8. NASA has not yet authorized the exact work which will be 
        conducted to close-out and retire the Space Shuttle after FY 
        2010, primarily at KSC, MAF, and Shuttle Prime Contractor 
        sites. That work will be better defined later in 2008 as part 
        of the current budget process.

        9. NASA does not uniformly gather data from contractors 
        conducting construction of facilities projects, as these are 
        not long-term, contracted efforts involving R&D. However, 
        modification of facilities to support future Constellation 
        development and operations has already started. Work will 
        continue on construction of facilities for this through the gap 
        in flights between Shuttle and Constellation. Some estimates 
        are included, but these are not inclusive.

        10. NASA does not gather data from companies participating via 
        Space Act Agreement in the Commercial Orbital Transportation 
        Services (COTS) activity, nor will NASA collect data from the 
        follow-on Commercial Cargo services for ISS, as these are 
        purchased services. After the last Space Shuttle mission, NASA 
        will increase the percentage of budget going to procure these 
        services and they will likely comprise part of the overall NASA 
        contractor figures.

Specific Workforce Information by Center/Location
    Note on contractor workforce estimate numbers: In order to project 
probable contractor workforce levels in the future, NASA gathers 
information from contractors on their current work, makes internal 
government estimates, and estimates allocation of future budget 
reserves not yet assigned to any contract. These can include NASA 
estimates of future budget reserves according to pro-rata distributions 
or technical risk assessments, as well as estimates of the percentage 
of funds used to design and develop new and unique products versus raw 
materials or purchased services. Contractor workforce projections for 
these years therefore may contain data which are the sum of: (a) 
defined, approved work on contract; (b) the government's estimate of 
work not yet awarded or negotiated (i.e., procurement-sensitive 
information); (c) an informed estimate for budget reserves allocated to 
mitigate not-yet-identified future technical problems; and (d) 
potential work not yet assigned by the government but under internal 
consideration. The details of these estimates cannot be made public, as 
potential bidders could use that information to determine the 
government's ``should cost'' estimate, or existing contractors could 
use that information to propose work up to that level. Additionally, 
many of the specific contractual details are still being refined as 
NASA continues to develop the appropriate acquisition strategies to 
meet its mission objectives at best value to the Nation.
    Pursuant to P.L. 110-161, Table 1 provides specific annual civil 
servant and contractor workforce projections for the four human 
spaceflight Centers (as well as MAF) that are most affected by the 
Shuttle-to-Constellation transition, including a low and a high range 
based on the variability in data inputs discussed above.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    NASA has focused its analysis to this point on the retirement of 
the Shuttle, which primarily affects the four human spaceflight 
Centers. As part of the FY 2010 budget formulation process and Shuttle-
to-Constellation Workforce Mapping activity, estimates are being 
developed for transition impacts to other NASA Centers and future 
Constellation work package assignments. However, the number of civil 
servants and prime contractors supporting Shuttle today at the other 
Centers is small. While the Shuttle workforce at these Centers is 
declining toward zero in FY 2010, the overall impact of Shuttle 
retirement at these Centers will be relatively minor. For example, in 
FY 2008 there are approximately 25 civil servants and prime contractors 
that support Space Shuttle at Ames Research Center in California, 36 at 
Dryden Flight Research Center in California, 6 at Glenn Research Center 
in Ohio, 33 at Goddard Space Flight Center in Maryland, and 14 at 
Langley Research Center in Virginia. Though mature estimates will not 
be available until the FY 2010 budget formulation and Workforce Mapping 
activities later this year, Constellation work at these Centers is 
likely to exceed present Shuttle demand.
    The data in Table 1 (including estimates of Constellation workforce 
at all ten Centers) will continue to be updated in future versions of 
this strategy.
    Focusing on the Shuttle and Constellation elements alone, 
nationwide, NASA plans to spend roughly the same amount of money on the 
purchase of products and services from its contractors as before. 
Presently, the budget and workforce distributions are well known for 
the existing Shuttle program, while the Constellation aspects are 
continually being refined as previously discussed. Requirements 
maturation, budget allocations, future contract awards, and reserve 
expenditures on currently unknown future cost, schedule, technical, and 
safety risks will better define the precise workforce, skill, and 
locational needs of the projects.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As the Space Shuttle Program begins to phase out, the Shuttle prime 
contractors project that contractor workforce will begin to be drawn 
down. Using these data, NASA estimates that the total contractor 
reductions across all NASA Centers will be between 1,000-2,000 people 
in FY 2009 and between 2,000-3,000 people in FY 2010. These are the 
same projections that were presented as part of the President's FY 2009 
budget roll-out and are consistent with the original Shuttle phase-out 
plan.
    During the same period, Constellation work requirements will 
increase. Contractor workforce synergy and Constellation work 
definition have served to lessen overall contractor workforce 
reductions. NASA is attempting to capture a portion of the Shuttle 
workforce for required Constellation work. NASA believes that many 
experienced Shuttle workers will be employed in the new Constellation 
contracts.
    As of the time of this report, not all of the Constellation work 
content that is expected to follow Orion/Ares I initial and full 
operational capability has been included in the Space Shuttle Workforce 
Mapping effort. It is anticipated that future content will be updated 
in future updates to this plan at the time of the President's FY 2010 
Budget Request.
    While the above estimates represent progress in defining workforce 
requirements at NASA Centers, the requirements should be considered 
preliminary and subject to change as work is better defined and 
contracts are awarded. Though student and Co-Op employees are not 
included in the FTE estimates, NASA expects that the number of student 
and Co-Op workers will remain relatively constant. Contractor workforce 
needed for Space Shuttle transition and retirement, as well as COTS 
launch workforce, is not included in the above projections, given the 
uncertainty related to the work requirements at this time and the 
nature of the relationship between the Agency and its COTS partners. 
Facility construction work is also not included in these estimates. A 
full list of caveats is noted on pages 19 and 20 of this report. NASA 
will provide Congress with civil servant and contractor workforce 
projections in future updates to this plan.
    NASA has workforce estimates from 2007 which were used to generate 
the President's 2009 Budget to Congress. These were preliminary and 
subject to change--these estimates only portray the work assigned to 
NASA Centers and industry as of late 2007. NASA is analyzing updated 
information as the Agency prepares the Presidents 2010 Budget Request. 
The President's 2009 Budget Request provides a preliminary look at how 
workforce would change from FY 2007 to FY 2012 if NASA does not assign 
additional design, development, manufacturing, test, integration or 
operations work to be conducted at KSC or MAF.
6.0  The Road Ahead
    In a short span of years, NASA has taken long strides in the 
formulation of strategies and programs that will take us back to the 
Moon and on to Mars and other destinations in the solar system. The 
Agency is continuing to transition from the Space Shuttle to new 
Exploration Systems; this transition is the largest and most daunting 
since the end of the Apollo Program and the beginning of the Space 
Shuttle Program. To implement it, NASA is focused on managing the 
evolution from current operations of the Space Shuttle to future 
operations of Constellation and emerging commercial services, in a 
safe, successful and smooth process. This joint effort between the 
Space Operations and Exploration Systems mission directorates includes 
the utilization and disposition of resources, including real and 
personal property, personnel, and processes, to leverage existing 
Shuttle and Space Station assets for future Exploration activities, 
including the Orion Ares I, and Ares V projects. Formalized Transition 
Boards are working to successfully achieve this outcome, and, to date, 
NASA has met all of its milestones and disposition targets. 
Acquisition, budget, and workforce planning are closely integrated and 
will continue to mature over the upcoming years.
    The Agency will continue to keep the Congress informed of progress 
on Transition activities, and will provide biannual updates to this 
report.
       Appendix A: Constellation Work Assignments to NASA Centers

------------------------------------------------------------------------

------------------------------------------------------------------------
             Ames Research Center, Moffett Field, California
------------------------------------------------------------------------
ESMD                      Manage Lunar Crater Observation and Sensing
                           Satellite Project; support Exploration life
                           support; lead radiation dosimetry and medical
                           sensor technology development; support space
                           human factors standards; support ISS
                           Exploration experiment development; lead
                           piloted spacecraft handling qualities.
------------------------------------------------------------------------
Constellation             In program integration, support for program
                           planning and control including data systems
                           support; safety, reliability and quality
                           assurance; system engineering and
                           integration; and test and evaluation.
------------------------------------------------------------------------
Mission                   Provide tools for flight controllers; develop
Operations                 new applications for the Constellation
                           training program; support multiple mission
                           operations planning and development tasks.
------------------------------------------------------------------------
Orion                     Lead thermal protection system advanced
                           development; support aero/aero-thermal
                           database development; support flight software
                           and guidance, navigation and control.
------------------------------------------------------------------------
Ares I                    Lead integrated systems health management;
                           aborts lead including blast analysis for Ares
                           abort; lead for launch abort system software
                           requirements, interface and verification;
                           launch abort system flight instrumentation
                           and health management; provide high fidelity
                           aero/aerothermal models and analysis and
                           simulated assisted risk assessments.
------------------------------------------------------------------------
Constellation             Support lunar architecture work for
Work                       Constellation Program system engineer; build
Announced                  mission operations simulation capabilities;
10-30-07                   lead Ares V integrated health management;
                           support Ares V payload shroud development at
                           NASA's Glenn Research Center; subsystem lead
                           for lunar lander and lunar surface systems
                           integrated health management; support
                           concepts for lunar surface extravehicular
                           activity suit lock and concept trade studies
                           for Moon suit; support lunar surface
                           mobility; support lunar in situ resource
                           utilization systems.
------------------------------------------------------------------------

 Appendix A: Constellation Work Assignments to NASA Centers--Continued

------------------------------------------------------------------------

------------------------------------------------------------------------
           Dryden Flight Research Center, Edwards, California
------------------------------------------------------------------------
ESMD                      Support NASA's Ames Research Center on piloted
                           spacecraft handling qualities.
------------------------------------------------------------------------
Constellation             In program integration, support test and
                           evaluation.
------------------------------------------------------------------------
Ground                    Support definition and planning for Orion
Operations                 ground operations including launch abort and
                           landing and recovery tests, re-entry and
                           landing profiles, and range safety
                           requirements.
------------------------------------------------------------------------
Orion                     Lead abort flight test integration and
                           operations; abort test booster procurement;
                           flight test article and abort test booster
                           integration; flight test article design,
                           assembly, integration and test; independent
                           analysis and oversight of flight test
                           articles.
------------------------------------------------------------------------
Constellation             Support mission operations simulation
Work                       capabilities; support ground and flight test
Announced                  operations for lunar projects.
10-30-07
------------------------------------------------------------------------
                 Glenn Research Center, Cleveland, Ohio
------------------------------------------------------------------------
ESMD                      Lead cryogenic fluid handling, propulsion,
                           fission power and energy storage projects;
                           support Exploration life support; support
                           Exploration medical capability and exercise
                           technologies development.
------------------------------------------------------------------------
Constellation             In program integration, support for safety,
                           reliability and quality assurance; system
                           engineering and integration; and test and
                           evaluation.
------------------------------------------------------------------------
EVA Systems               Manage power and communications avionics
                           informatics subsystems for low Earth orbit
                           and lunar extravehicular activities; support
                           extravehicular activity systems power,
                           avionics and software disciplines.
------------------------------------------------------------------------
Orion                     Lead service module and spacecraft adapter
                           integration; produce service module and
                           spacecraft adapter flight test articles and
                           pathfinders; support integration analysis and
                           system engineering and integration; vehicle
                           environmental qualification at Plum Brook.
------------------------------------------------------------------------
Ares I                    Lead upper stage thrust vector control
                           subsystem development; lead upper stage
                           electrical power and power distribution
                           system development; lead developmental flight
                           instrumentation package; support upper stage
                           system engineering and integration; J-2X
                           thermal and vacuum testing at Plum Brook;
                           support vehicle integrated design analysis;
                           lead upper stage module development for Ares
                           I-X test flight.
------------------------------------------------------------------------
Constellation             Support lunar architecture work for
Work                       Constellation Program system engineer; lead
Announced                  Ares V power, thrust vector control and
10-30-07                   payload shroud development; lead Earth
                           departure stage orbital environments testing
                           at Plum Brook; subsystem lead for lunar
                           lander ascent stage propulsion; and ascent
                           and descent stage power generation,
                           management and energy storage systems; lead
                           lunar lander environmental testing at Plum
                           Brook; support for lunar lander project
                           integration and descent stage propulsion
                           subsystems; lead lunar surface systems power
                           generation and management, energy storage
                           systems and element environmental testing;
                           subsystem lead for passive thermal systems
                           and surface element communications; support
                           lunar surface in situ resource systems and
                           surface mobility systems.
------------------------------------------------------------------------

 Appendix A: Constellation Work Assignments to NASA Centers--Continued

------------------------------------------------------------------------

------------------------------------------------------------------------
            Goddard Space Flight Center, Greenbelt, Maryland
------------------------------------------------------------------------
ESMD                      Lunar Reconnaissance Orbiter Project
                           management and integration.
------------------------------------------------------------------------
Constellation             In program integration, support safety,
                           reliability and quality assurance; system
                           engineering and integration; and test and
                           evaluation.
------------------------------------------------------------------------
Orion                     Communications and tracking support.
------------------------------------------------------------------------
Constellation             Lead program requirements for unpressurized
Work                       cargo carriers; lead Orion unpressurized
Announced                  cargo carrier; support lunar architecture
10-30-07                   work for Constellation Program system
                           engineer; subsystem lead for lunar lander
                           avionics; support lunar surface systems
                           avionics and surface element communications;
                           provide extravehicular activity tools and
                           equipment.
------------------------------------------------------------------------
             Jet Propulsion Laboratory, Pasadena, California
------------------------------------------------------------------------
ESMD                      Navigation support for Lunar Crater
                           Observation and Sensing Satellite; lead
                           Advanced Environmental Monitoring and Control
                           Project.
------------------------------------------------------------------------
Constellation             In program integration, support safety,
                           reliability and quality assurance; system
                           engineering and integration; and test and
                           evaluation.
------------------------------------------------------------------------
Orion                     Support thermal protection system advanced
                           development.
------------------------------------------------------------------------
Constellation             Support lunar architecture work for
Work                       Constellation Program system engineer; lunar
Announced                  lander project support including spacecraft
10-30-07                   design; guidance, navigation and control;
                           life support systems, and avionics; lead
                           specific robotic surface mobility; support
                           environmental monitoring and control and
                           surface system local element communications.
------------------------------------------------------------------------
                  Johnson Space Center, Houston, Texas
------------------------------------------------------------------------
ESMD                      Human Research program management and
                           integration; Commercial Orbital
                           Transportation Services Project (COTS)
                           management and integration; lead autonomous
                           landing and hazard avoidance technology; in
                           situ resource utilization; thermal, surface
                           and extravehicular activity systems, and life
                           support projects.
------------------------------------------------------------------------
Constellation             Program management and integration;
                           extravehicular activity systems project
                           management and integration; extravehicular
                           activity hardware development including suit,
                           vehicle interface, tools and ground support
                           equipment; manage life support, pressure
                           garment and crew survival subsystems; mission
                           operations project management and integration
                           including Mission Control Center and training
                           and mockup facilities.
------------------------------------------------------------------------
Ares I and                Support program and mission operations
Ares V                     interface.
------------------------------------------------------------------------
Orion                     Project management and integration; lead crew
                           module and vehicle integration, government-
                           provided hardware, flight test execution and
                           parachutes.
------------------------------------------------------------------------
Constellation             Lunar lander and lunar surface systems project
Work                       management and integration including lunar
Announced                  architecture work; element lead for lunar
10-30-07                   lander crew module/ascent stage; lead crew
                           habitation and environmental control and life
                           support subsystems; subsystem support for
                           ascent stage propulsion, propulsion testing,
                           and project avionics and structures; lead
                           lunar surface crew habitation, environmental
                           control and life support systems, and human
                           mobility systems; support lunar surface in
                           situ resource utilization systems.
------------------------------------------------------------------------

 Appendix A: Constellation Work Assignments to NASA Centers--Continued

------------------------------------------------------------------------

------------------------------------------------------------------------
           Kennedy Space Center, Kennedy Space Center, Florida
------------------------------------------------------------------------
ESMD                      Support Exploration experiments on the ISS.
------------------------------------------------------------------------
Constellation             In program integration, support safety,
                           reliability and quality assurance; system
                           engineering and integration; and test and
                           evaluation.
------------------------------------------------------------------------
Ground                    Project management and integration;
Operations                 responsible for achieving all Agency ground
                           operations objectives allocated to the launch
                           and landing sites; lead design, development,
                           test and engineering and logistics activities
                           for all ground processing, launch and
                           recovery systems; lead ground processing,
                           launch and landing operations planning and
                           execution.
------------------------------------------------------------------------
Orion                     Ground processing including ground support
                           equipment; launch operations; and recovery
                           support during design, development, test and
                           engineering; prime contractor oversight and
                           independent analysis.
------------------------------------------------------------------------
Ares I                    Ground processing, launch operations, and
                           recovery support during design, development,
                           test and engineering; lead launch operations
                           planning and execution for Ares I-X and other
                           flight demonstrations.
------------------------------------------------------------------------
Constellation             Support lunar architecture work for
Work                       Constellation program system engineer; ground
Announced                  operations and assembly for Orion Block 1 and
10-30-07                   Ares I low Earth orbit operations phase; Ares
                           V ground processing, launch operations and
                           recovery support during design, development,
                           test and engineering; final assembly of and
                           ground processing support for human lunar
                           lander; lunar surface habitat management and
                           integration; lead for lunar surface in situ
                           resource utilization systems; support surface
                           systems logistics concepts.
------------------------------------------------------------------------
               Langley Research Center, Hampton, Virginia
------------------------------------------------------------------------
ESMD                      Exploration Technology Development Program
                           management and integration; lead structures,
                           mechanisms and materials and supportability
                           projects; support autonomous landing and
                           hazard avoidance technology project with lead
                           for sensors; deputy management for radiation
                           protection element.
------------------------------------------------------------------------
Constellation             In program integration, support safety,
                           reliability and quality assurance; system
                           engineering and integration; and test and
                           evaluation.
------------------------------------------------------------------------
Orion                     Lead launch abort system integration and crew
                           module landing system advanced development;
                           produce flight test and pathfinder articles
                           for crew module, launch abort system and
                           separation rings; support aero/aerothermal;
                           guidance, navigation and control; avionics
                           software; and displays and controls;
                           independent analysis and system engineering
                           and integration support.
------------------------------------------------------------------------
Ares I                    Lead aerodynamic characterization of
                           integrated launch vehicle stack, aerodynamic
                           database development, and aeroelasticity test
                           and analysis; support structural design and
                           analysis; guidance, navigation and control
                           development; flight mechanics and trajectory
                           analyses; support systems engineering and
                           upper stage design, development, test and
                           engineering; lead vehicle integration
                           activities and crew module and launch abort
                           simulator design and fabrication for Ares I-
                           X.
------------------------------------------------------------------------
Constellation             Support lunar architecture work for
Work                       Constellation Program system engineer; lead
Announced                  Ares V aerodynamics; support Ares V systems
10-30-07                   engineering, structures and materials
                           engineering, and payload shroud structures;
                           build mission operations and simulation
                           capabilities; subsystem lead for lunar lander
                           structures and mechanisms including ascent
                           and descent stages; support lunar lander
                           project integration; support lunar lander and
                           lunar surface systems crew habitation
                           (radiation protection); lead lunar surface
                           systems structures and mechanisms including
                           support to habitat, mobility and in situ
                           resource systems.
------------------------------------------------------------------------

 Appendix A: Constellation Work Assignments to NASA Centers--Continued

------------------------------------------------------------------------

------------------------------------------------------------------------
            Marshall Space Flight Center, Huntsville, Alabama
------------------------------------------------------------------------
ESMD                      Lunar Precursor Robotic Program management and
                           integration.
------------------------------------------------------------------------
Constellation             In program integration, support program
                           planning and control; safety, reliability and
                           quality assurance; system engineering and
                           integration; and test and evaluation.
------------------------------------------------------------------------
Orion                     Support launch abort systems and service
                           module; support abort test booster
                           requirements development and validation.
------------------------------------------------------------------------
Ares I and                Project office management and vehicle
Ares V                     integration for Ares I and Ares V; Ares I
                           first stage development and management and
                           Ares V first stage management; Ares I upper
                           stage design and development; J-2X engine
                           development and management; manage upper
                           stage production contracts at NASA's Michoud
                           Assembly Facility; lead Ares I-X avionics,
                           roll control system, and first stage
                           modifications; Ares V Earth departure stage
                           development, test and oversight; core stage
                           development, test and oversight; core stage
                           (RS-68) engine management.
------------------------------------------------------------------------
Constellation             Support lunar architecture work for
Work                       Constellation Program system engineer;
Announced                  element lead for lunar lander descent stage;
10-30-07                   subsystem lead for lunar lander descent stage
                           propulsion; subsystem support for lunar
                           lander ascent stage propulsion, propulsion
                           testing, project avionics, life support, and
                           structures; support project integration;
                           support lunar surface systems life support,
                           habitat, structures and in situ resource
                           systems.
------------------------------------------------------------------------
            Michoud Assembly Facility, New Orleans, Louisiana
------------------------------------------------------------------------
Constellation             Manufacturing of Ares I upper stage, Ares V
                           stages, and Orion structure.
------------------------------------------------------------------------
         Stennis Space Center, Stennis Space Center, Mississippi
------------------------------------------------------------------------
Constellation             In program integration, support system
                           engineering and test and evaluation.
------------------------------------------------------------------------
Ground                    Support design, development, test and
Operations                 evaluation of propellant test and delivery
                           systems; ground engine checkout facility
                           simulation and analysis; engine and launch
                           facility planning and development.
------------------------------------------------------------------------
Ares I                    Focused program management and integration for
                           rocket propulsion testing; lead sea-level
                           development, certification and acceptance
                           testing for flight upper stage assembly,
                           upper stage engine and main propulsion test
                           article including facility modifications and
                           test operations; lead altitude development
                           and certification testing for upper stage
                           engine.
------------------------------------------------------------------------
Constellation             Lead Ares V liquid rocket systems and stage
Work                       testing at sea level and altitude; support
Announced                  lunar lander descent stage propulsion
10-30-07                   testing.
------------------------------------------------------------------------
            White Sands Test Facility, Las Cruces, New Mexico
------------------------------------------------------------------------
Constellation             Orion Abort Test Booster Test Site.
------------------------------------------------------------------------

     Appendix B: NASA Non-Sensitive Integrated Acquisition Roadmap
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Appendix C: Multi-Program Integrated Milestones (as of January 25, 
                                 2008)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
